<html>
<title> - ASSESSING THE THREAT FROM ACCELERA- TIONISTS AND MILITIA EXTREMISTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   ASSESSING THE THREAT FROM ACCELERATIONISTS AND MILITIA EXTREMISTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2020

                               __________

                           Serial No. 116-78

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
43-866 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
             Sandeep Prasanna, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Ms. J.J. MacNab, Fellow, Program on Extremism, The George 
  Washington University:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. John K. Donohue, Fellow, Rutgers University, Miller Center 
  for Community Protection and Resiliency, Former NYPD Chief of 
  Strategic Initiatives:
  Oral Statement.................................................    17
  Prepared Statement.............................................    20
Ms. Heidi L. Beirich, Co-Founder and Executive Vice President, 
  Global Project Against Hate and Extremism:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

 
  ASSESSING THE THREAT FROM ACCELERA- TIONISTS AND MILITIA EXTREMISTS

                              ----------                              


                        Thursday, July 16, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., 
via Webex, Hon. Max Rose (Chairman of the subcommittee) 
presiding.
    Present: Representatives Rose, Jackson Lee, Slotkin, 
Thompson (ex officio), and Walker.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order.
    Thank you all for joining today for a hearing entitled 
``Assessing the Threat from Accelerationists and Militia 
Extremists.'' This hearing will look at a range of violent, 
anti-Government actors, movements, and organizations, 
highlighting recent threats from militia extremists and 
accelerationists, including the Boogaloo movement, who seek to 
accelerate society toward violent collapse.
    Let me also just say this. This ain't about politics today. 
All right? If there is something happening on the left, it is 
happening on the left; if there is something happening on the 
right, if there is something happening anywhere on the 
political spectrum that involves violence, upending society, 
threatening institutions, we have to look at it. That is what 
we are doing today. So it is incredibly irrelevant to me which 
groups we look at, so long as we are looking at the principal 
ones that threaten people's lives.
    Some of these extremist movements stem from ideologies that 
are decades old. Others are relatively new. These threats range 
from decentralized and leaderless accelerationist networks to 
more structured militia groups.
    Anti-Government extremism is one of the common threads, but 
we often see overlap with anti-immigrant, anti-Semitic, anti-
Black, anti-Muslim ideologies, bringing these extremists into 
common cause with others who are extremist in nature.
    Together, we have a collective opportunity to discuss the 
current threat landscape from these movements so we can develop 
an understanding of how they have flourished in our communities 
and in on-line spaces.
    We have seen horrific acts of violence recently.
    In April, a man in Texas was arrested after streaming 
himself on Facebook Live searching for a law enforcement 
officer to ambush.
    In May and June, a man in California shot and killed a 
Department of Homeland Security Federal Protective Service 
officer and wounded one more and then went on to kill a Santa 
Cruz County Sheriff's deputy officer before being arrested. He 
wrote the word ``Boog'' in blood after carrying out the second 
murder.
    In May, 3 men were arrested by the FBI in Nevada while 
reportedly on their way to inflict violence at a Black Lives 
Matter protest in Las Vegas.
    June, a man in Oklahoma arrested, found in possession of 
illegally-modified machine guns, grenades, Molotov cocktails--
all of whom appear to be connected to the Boogaloo movement. 
The list goes on and on and on.
    So it is important today that we don't lose sight of the 
ways in which accelerationist movements like Boogaloo intersect 
and are popular with other extremist groups. The Base, the 
Atomwaffen come to mind, 2 groups that we have looked at, 
particularly during our discussions.
    We are going to be asking some really critical questions 
today. Principally, though, No. 1 is, what the hell do we do 
about this? What does law enforcement do? What does the Federal 
Government do? What can and should social media do? What do we 
do in a collaborative way? What do we do in a mandatory way?
    We have a shared responsibility across the public and 
private sectors. The lives of our law enforcement officials are 
on the line in so many of these instances. The lives of 
innocent citizens who are congregating in protest are on the 
line. I do believe, in so many ways, the future of this country 
and the sanctity of the Constitution is on the line.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                             July 16, 2020
    This hearing will look at a range of violent anti-Government 
actors, movements, and organizations, highlighting recent threats from 
militia extremists and accelerationists, including the Boogaloo 
movement, who seek to accelerate society toward violent collapse. Some 
of these extremist movements stem from ideologies that are decades old. 
Others are relatively new. These threats range from decentralized and 
leaderless accelerationist networks to more structured militia groups.
    Anti-Government extremism is one of the common threads--but we 
often see overlap with anti-immigrant, anti-Semitic, anti-Black, anti-
Muslim ideologies as well, bringing these extremists into common cause 
with White supremacists. Today, we have an opportunity to discuss the 
current threat landscape from these movements so we can develop an 
understanding of how they have flourished in our communities and in on-
line spaces.
    The Boogaloo movement has been thrust into the spotlight in recent 
months as we have seen attack after attack, arrest after arrest, of men 
affiliated with the Boogaloo movement. Too often, our brave law 
enforcement officers have been the target of their violence.
    In April, a man in Texas was arrested after streaming himself on 
Facebook Live searching for a law enforcement officer to ambush. In May 
and June, a man in California shot and killed a Department of Homeland 
Security Federal Protective Service officer and wounded one more, and 
then went on to kill a Santa Cruz County police officer before being 
apprehended. He wrote the word ``Boog'' in blood after carrying out the 
second murder.
    Also in May, 3 men were arrested in Nevada, in possession of 
Molotov cocktails, while reportedly on their way to incite violence at 
a Black Lives Matter protest in Las Vegas. In June, a man in Oklahoma 
was arrested and found to be in possession of an illegally modified 
machine gun, homemade grenades, and Molotov cocktails. All of these men 
appear to be connected to the Boogaloo movement.
    Even in my home State of New York, a man in Troy who had posted 
Boogaloo content on-line was arrested for carrying a loaded ghost gun--
a gun without a serial number--in June. In Ranking Member Walker's home 
State of North Carolina, Boogaloo bois came armed to protests in 
Greensboro and Asheboro at the beginning of June. Some of these 
incidents ended in lethal violence. Others were stopped before that 
point. All of these incidents underscore the danger of the movements in 
front of us today.
    Experts, like the ones testifying today, have highlighted the fact 
that the Boogaloo movement is complex and changing. The terminology 
they use, the images they use, and their organizing tactics are in 
flux.
    This unique challenge for policy makers and law enforcement alike 
will require thoughtful and innovative solutions--solutions that won't, 
in turn, fan the flames of these extremists' recruitment efforts. This 
challenge is also an opportunity: We must look hard at the roots of the 
problem, to identify ways to address the causes of this violence rather 
than just its symptoms.
    It's important that we don't lose sight of the ways in which 
accelerationist movements, like Boogaloo, intersect and overlap with 
other extremist movements. Popular White supremacist groups like The 
Base and Atomwaffen are also accelerationist groups. These overlapping 
ideologies risk inspiring the next generation of extremist actors 
seeking to commit acts of violence in the United States and abroad. As 
law enforcement officers continue to be one of their top targets, it's 
critical that the Department of Homeland Security and other Federal 
agencies dedicate resources and attention to informing and educating 
State and local law enforcement about these threats.
    It's also vital that we understand these movements are not evolving 
in a vacuum. Particularly in an election year, we can't disregard the 
risk that anti-Government extremists--either wittingly or unwittingly--
may latch on to narratives and conspiracies propagated by Russia and 
other adversaries who seek to further social divisions. It is important 
that when we examine these on-line and amorphous networks, we are aware 
of the dangers of malign foreign influence campaigns.
    In this same vein, there is undoubtedly a shared responsibility 
between the private and public sectors to address these on-line 
threats. This means taking a hard look at whether social media 
companies follow their own policies and procedures about extremist 
content. This also includes taking down Boogaloo and other 
accelerationist content, like Facebook and Discord recently did.
    However, more work needs to be done. Coalition groups like the new 
Global Internet Forum to Counter Terrorism, which recently named Nick 
Rasmussen as its inaugural executive director, should be at the 
forefront of coordinating and responding to these threats so they don't 
have a home anywhere on-line.
    I look forward to a conversation from this distinguished panel of 
experts discussing how to best understand this threat and respond to 
it.

    Mr. Rose. So, with that, the Chair now recognizes the 
Ranking Member of the subcommittee, the gentleman from North 
Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    There is no doubt that across the globe there is an uptick 
in extremist ideology, particularly linked to violent, White 
supremacy anarchy.
    As the committee was created after 9/11, we must stay 
focused on the continued jihadi threat. Within these various 
movements, we are seeing the adoption of accelerationist 
rhetoric, with calls to target Government institutions and law 
enforcement, for adherents to commit acts of violence as a 
means of creating further unrest.
    We see this concept in White supremacist movements, anti-
Government groups, and some violent environmental 
organizations. This convergence of violent ideologies results 
in the sharing of tactics and propaganda and the spreading of 
misinformation and conspiracies, as well as the celebration of 
violence.
    I probably should start by expressing my sincere 
condolences to the families of David Underwood, a DHS 
protective security officer, and Damon Gutzwiller, a Santa Cruz 
County deputy that the Chairman just mentioned. They were both 
murdered in the line of duty in late May and early June. I also 
want to express support and hope for the speedy recovery of 
their colleagues who were injured in these attacks.
    The suspects believed to be responsible have been arrested, 
and the FBI is conducting a full investigation, including into 
the links on the possible support for the Boogaloo movement, 
which is an accelerationist term.
    But we also must review others, as the Chairman just 
mentioned, and I appreciate that, that these attacks are on all 
Americans. Groups like Antifa. I know that seems to be, these 
days, kind-of a conservative talking point, but it is not. The 
kind of damage that they are doing--a reporter sat in my 
office, could still see the injuries.
    Over the past 3 months, there has been a consistent effort 
by Antifa supporters to infiltrate protests to lay siege to 
Government buildings and target law enforcement. In Portland 
alone, the police chief has stated that the violence has cost 
the city tens of millions of dollars, specifically in overtime 
security as well as the damage done.
    These are the kinds of things that we must stand together, 
regardless of the politics. In Seattle, there is a coordinated 
effort to deny the Antifa movement--that we need to move 
forward. The reality is that Antifa is not an organization. We 
understand that. But it is a movement, an ideology, and a call 
for violent rioting. The people involved in the CHOP zones and 
in the continued violence around the city are certainly part of 
these movements.
    We can agree that all these groups--Boogaloo, Antifa, and 
any other extremist movements that seek to terrorize--must be 
absolutely condemned. I think that is why this hearing is 
crucial today. These violent extremists on all sides are 
attempting to hijack legitimate protests and interrupt debate 
on needed institutional reforms. Some are targeting protesters, 
some are attacking police officers, many are vandalizing 
Government buildings, and others are seeking to create these 
so-called autonomous zones. We need a robust and coordinated 
effort to condemn the violence and restore order.
    I want to thank the witnesses for appearing before the 
subcommittee today. I look forward to your testimony.
    I yield back my time.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                             July 16, 2020
    Thank you, Mr. Chairman.
    There is no doubt that across the globe, there is an uptick in 
extremist ideology, particularly linked to violent White supremacy and 
anarchy. As the committee created after 9/11, we must also stay focused 
on the continued jihadi threat.
    Within these various movements, we are seeing the adoption of 
``accelerationist'' rhetoric with calls to target Government 
institutions and law enforcement, and for adherents to commit acts of 
violence as a means of creating further unrest. We see this concept in 
White supremacist movements, anti-Government groups, and some violent 
environmental organizations. This convergence of violent ideologies 
results in the sharing of tactics and propaganda, and the spreading of 
misinformation and conspiracies, as well as the celebration of 
violence.
    I want to express my sincere condolences to the families of David 
Patrick Underwood, a DHS Protective Security Officer, and Damon 
Gutzwiller, a Santa Cruz County Deputy. They were both murdered in the 
line of duty in late May and early June. I also want to express support 
and hope for the speedy recovery of their colleagues who were injured 
in these attacks. The suspects believed to be responsible have been 
arrested and the FBI is conducting a full investigation, including into 
the possible support for the ``Boogaloo'' movement, which is an 
accelerationist term.
    We must also review movements like Antifa. Over the past 3 months, 
there has been a consistent effort by Antifa supporters to infiltrate 
protests to lay siege to Government buildings and target law 
enforcement. In Portland, the police chief has stated that the violence 
has cost the city at least $6.2 million in overtime to provide 
security. Violence in Seattle, which is largely linked to Antifa, has 
resulted in hundreds of thousands of dollars in damage to the Federal 
courthouse, which is now boarded up. All the first-floor windows are 
broken and rioters have made several attempts to set it on fire.
    In Seattle, in particular, there is a coordinated effort to deny 
Antifa involvement, including by the Mayor. The reality is that Antifa 
is not an organization. But it is a movement, an ideology, and a call 
for violent rioting. The people involved in CHOP, and in the continued 
violence around the city, are certainly part of this movement.
    We can agree that all of these groups--Boogaloo, Antifa, and any 
other extremist movements that seek to terrorize--must be absolutely 
condemned. These violent extremists on all sides are attempting to 
hijack legitimate protests and interrupt debate on needed institutional 
reforms. Some are targeting protestors, some are attacking police 
officers, many are vandalizing Government buildings, and others are 
seeking to create so-called ``autonomous'' zones. We need a robust and 
coordinated effort to condemn this violence and restore order.
    I appreciate the concrete steps this administration has taken, 
especially within the Department of Homeland Security, to set up a 
framework to address terrorism and targeted violence. The release of 
the September 2019 strategy was a critical step in identifying programs 
and capabilities across DHS that can address these threats and gaps 
where new efforts are needed. Additional staff is being hired to expand 
programs and establish regional networks across the country. Funds from 
the 10 million grant program should be awarded this summer. I am 
encouraged by all of these activities. Mr. Chairman I urge you to 
schedule an in-person hearing or briefing so we can get an update on 
this important work.
    I want to thank the witnesses for appearing before the subcommittee 
today. I look forward to your testimony and yield back my time.

    Mr. Rose. I thank the Ranking Member.
    Members are reminded that the subcommittee will operate 
according to the guidelines laid out by Chairman Thompson and 
Ranking Member Rogers in the July 8 memo.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    OK. In Chairman Thompson's absence, the Chair now 
recognizes the Ranking Member of the full committee, the 
gentleman from Alabama, Mr. Rogers, for an opening statement.
    OK. Oh, there is Chairman Thompson.
    Chairman Thompson, if you would so like, we will now 
recognize you for an opening statement.
    Mr. Thompson. Thank you very much, Chairman Rose. I thank 
you for convening this timely hearing today and for your 
leadership on these issues.
    This committee is known for following the threats wherever 
they may lead. Today that brings us here. This hearing provides 
us with an opportunity to examine the emerging threat from 
violent, anti-Government extremists.
    I believe today's hearing is the first Congressional 
hearing to focus specifically on the emerging threat from 
accelerationists, and I applaud Chairman Rose for examining 
this issue. It is important that members and the American 
public hear from these experts today to understand those 
emerging threats.
    Recent attacks and arrests have showcased the threat from 
individuals affiliated with the Boogaloo movement. This loose 
coalition of extremists present an immediate danger to law 
enforcement and the American people.
    As our experts have shared in their written testimony, this 
movement is complex and requires a nuanced understanding. The 
Boogaloo network, as a whole, appears to be largely anti-
Government, constantly changing, and drawing followers from the 
fringes of many different extremist ideologies. The common 
thread is a desire to accelerate society toward a second civil 
war. That means that many of them are driven to commit 
violence.
    It is imperative that Department of Homeland Security and 
other Federal agencies immediately devote resources toward 
understanding and confronting these emerging threats. I 
understand that this is a difficult issue, but it is not 
acceptable for DHS to remain in the dark. Law enforcement 
officials remain a top target of these individuals and 
extremists, which means that it is even more urgent for DHS to 
produce and disseminate information to State and local law 
enforcement so they can stay ahead of the threat.
    Federal resources and attention must be appropriately 
allocated. We need to follow the threat. We shouldn't be swayed 
by political winds. It goes without saying that property damage 
and any and all violence linked to Antifa should be condemned. 
But public reporting, arrest records, the Government's own 
reporting all indicate that right-wing extremists pose a more 
urgent and lethal threat to Americans. We will hear today from 
those experts about the actual deadly threats facing Americans.
    I look forward to the discussion on how the violent fringes 
of these movements have utilized on-line platforms to their 
advantage. This has been a major concern of mine over the last 
Congress and one of the reasons I introduced H.R. 4782, the 
National Commission on Online Platforms and Homeland Security 
Act. The commission would seek to understand how bad actors, 
including extremists, exploit on-line platforms in furtherance 
of violence.
    This bipartisan piece of legislation was voted out of this 
committee in October 2019 and awaits action from our colleagues 
in the Energy and Commerce Committee. This committee will 
continue to shed light on how social media platforms are 
exploited and also hold the companies accountable when they 
fail to enforce the policies they have set forth to combat 
extremists.
    I appreciate the witnesses joining us today and again thank 
Chairman Rose for convening this hearing. I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 16, 2020
    This committee is known for following the threats, wherever they 
may lead. Today, that brings us here. This hearing provides us with an 
opportunity to examine the emerging threat from violent anti-Government 
extremists.
    I believe today's hearing is the first Congressional hearing to 
focus specifically on the emerging threat from ``accelerationists''--
and I applaud Chairman Rose for examining this issue. It is important 
that Members and the American public hear from these experts today to 
understand these emerging threats.
    Recent attacks and arrests have showcased the threat from 
individuals affiliated with the Boogaloo movement. This loose coalition 
of extremists present an immediate danger to law enforcement and the 
American people. As our experts have shared in their written testimony, 
this movement is complex and requires a nuanced understanding.
    The Boogaloo network as a whole appears to be largely anti-
Government, constantly changing, and drawing followers from the fringes 
of many different extremist ideologies. The common thread is the desire 
to accelerate society toward a second civil war. That means that many 
of them are driven to commit violence. It is imperative that the 
Department of Homeland Security and other Federal agencies immediately 
devote resources toward understanding and confronting these emerging 
threats. I understand that this is a difficult issue. But it is not 
acceptable for DHS to remain in the dark.
    Law enforcement officials remain a top target of accelerationists 
and other extremists, which means that it is even more urgent for DHS 
to produce and disseminate information to State and local law 
enforcement so they can stay ahead of the threat. Federal resources and 
attention must also be appropriately allocated. We need to follow the 
threat. We shouldn't be swayed by political winds.
    It goes without saying that property damage and any and all 
violence linked to Antifa should be condemned. But public reporting, 
arrest records, the Government's own reporting all indicate that right-
wing extremists pose a more urgent and lethal threat to Americans. We 
will hear today from these experts about the actual deadly threats 
facing Americans.
    I am also looking forward to a discussion on how the violent 
fringes of these movements have utilized on-line platforms to their 
advantage. This has been a major concern of mine over the last 
Congress, and one of the reasons I introduced H.R. 4782, the National 
Commission on Online Platforms and Homeland Security Act. The 
Commission would seek to understand how bad actors, including 
extremists, exploit on-line platforms in furtherance of violence. This 
bipartisan piece of legislation was voted out of this committee in 
October 2019 and awaits action from our colleagues in the Energy and 
Commerce Committee.
    This committee will continue to shed light on how social media 
platforms are exploited--and also hold the companies accountable when 
they fail to enforce the policies they have set forth to combat 
extremists.

    Mr. Rose. Thank you, Mr. Chairman. Other Members may submit 
written statements for the record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             July 16, 2020
    Thank you, Chairman Rose for holding today's hearing ``Assessing 
the Threat from Accelerationists and Militia Extremists,'' to our 
Nation's homeland security.
    It is a well-known fact that before you can begin to address any 
problem, you must first recognize the symptoms.
    I look forward to the testimony of today's witnesses:
  <bullet> Ms. J.J. MacNab, fellow, Program on Extremism, George 
        Washington University
  <bullet> Dr. Heidi Beirich, co-founder and executive vice president, 
        Global Project Against Hate and Extremism
  <bullet> Mr. John ``Jack'' Donohue, fellow, Rutgers University Miller 
        Center for Community Protection and Resiliency; former NYPD 
        Chief of Strategic Initiatives
  <bullet> The Minority did not request a witness.
    Over the last month I have raised concerns over the role that 
Boogaloo and Proud Boys have played in bringing an element of violence 
into the otherwise peaceful protests following the death of George 
Floyd.
    This hearing will provide an opportunity to address these concerns 
by:
  <bullet> learning about the background and context of emerging 
        threats from fringe violent extremists like the Boogaloo 
        movement or accelerationists as well as traditional far-right 
        militia extremist groups;
  <bullet> developing a nuanced understanding of how extremist 
        ecosystems like the Boogaloo movement develop and flourish on 
        social media platforms; and
  <bullet> identifying gaps in Government processes and recommending 
        policies to more effectively and innovatively combat the unique 
        threats posed by violent decentralized movements and militia 
        groups.
    The violence seen during the recent National movement to end the 
deaths of unarmed black men while in police custody is not the start of 
the events that have led to the Boogaloo movement or Proud Boys 
activity.
    According to the Southern Poverty Law Center (SPLC), in the 
immediate aftermath of Election Day, a wave of hate crimes and lesser 
hate incidents swept the country with 1,094 bias incidents recorded in 
the first 34 days following November 8, 2016.
    Of these incidents the SPLC reports that anti-immigrant incidents 
(315) remain the most reported, followed by anti-black (221), anti-
Muslim (112), and anti-LGBT (109).
    Anti-Trump incidents numbered 26 (6 of which were also anti-White 
in nature, with 2 non-Trump related anti-White incidents reported).
    This hearing will assess the threat posed by accelerationists and 
militia extremists--a range of violent anti-Government actors, 
movements, and organizations, some of which branch out of decades-old 
ideologies and others which are relatively new.
    These varied threats range from decentralized and leaderless 
accelerationist networks using social media platforms, such as the 
Boogaloo movement, to more structured, far-right militia extremist 
groups.
    The ideologies undergirding these movements or groups have some 
similarities to other anti-Government and White supremacist beliefs but 
are often not tied to a single, monolithic ideology.
    In addition, in many cases, their adherents' decentralized and 
coded use of digital tools poses unique challenges for law enforcement 
and Government officials to identify and track their activity.
    These developments in domestic terrorism, as reported in the media 
and Government intelligence reports--coupled with recent arrests and 
successful violent attacks carried out by ``Boogaloo bois'' and militia 
extremists--are troubling.
    My concern is that as the Nation moves toward a historic National 
election, the activity of violence influencers like Boogaloo bois or 
Proud Boys will increase and lead to attacks becoming more frequent.
    The domestic terrorism issues of greatest concern to me are:
  <bullet> The number of incidents, although small in number, that have 
        involed Government employees, contractors or military 
        personnel;
  <bullet> The targeting of places of worship;
  <bullet> Politically motivated attacks or attempted attacks; and
  <bullet> Use of social media for domestic and international hate 
        groups to collaborate and stoke hate.
    Proud Boys is designed by the Southern Poverty Law Center as a hate 
group.
    The Proud Boys is a far-right neo-fascist organization that admits 
only men as members and promotes political violence.
    The group believes men--especially White men--and Western culture 
are under siege; their views have elements of White genocide conspiracy 
theory.
    While the group claims it does not support White supremacist views, 
its members often participate in racist rallies, events, and 
organizations.
    The organization glorifies violence, and members engage in violence 
at events it attends; the Southern Poverty Law Center has called it an 
``alt-right fight club''.
    They are often identified by their attire of Hawaiian shirts and 
military fatigues, and are heavily armed.
    In May-June 2020, Facebook acted to limit the movement's activities 
and visibility across its social media platforms.
    Members of Boogaloo groups typically believe in accelerationism and 
support any action that will speed impending civil war and eventually 
the collapse of society.
    The movement consists of pro-gun, anti-Government groups.
    The specific ideology of each group varies, and views on some 
topics such as race differ widely.
    Some are White supremacist or neo-Nazi groups who specifically 
believe the impending unrest will be a race war; others condemn racism.
    Wide-spread use of the term Boogaloo bois dates from late 2019, and 
adherents use the term (including variations, so as to avoid social 
media crackdowns) to refer to violent uprisings against the Federal 
Government or left-wing political opponents.
    Believers in the movement can appear unexpectedly at events and 
protests initiated by others with apparently different affiliations, 
which was the case during the protest George Floyd's death.
    They have been observed at pro-gun rights demonstrations, protests 
against COVID-19 lockdowns, and protests in support of the Black Lives 
Matter movement.
    The Boogaloo movement adopted its identity based on the 
anticipation of a second American Civil War, popularly known as ``Civil 
War 2: Electric Boogaloo'' among adherents.
    Extremism researchers first took notice of the word ``Boogaloo'' 
being used in the context of the Boogaloo movement in 2019, when they 
observed it being used among fringe groups including militias, gun 
rights movements, and White supremacist groups.
    This usage of the term is believed to have originated on the fringe 
imageboard website 4chan, where it was often accompanied by references 
to ``racewar'' and ``dotr'' (day of the rope, a neo-Nazi reference to a 
fantasy involving murdering what the posters view to be ``race 
traitors'').
    The usage of the term ``Boogaloo'' increased by 50 percent on 
Facebook and Twitter in the last months of 2019 and into early 2020.
    They attribute surges in popularity to a viral incident in November 
2019, when a military veteran posted content mentioning the Boogaloo on 
Instagram during a standoff with police, and to the December 2019 
impeachment of Donald Trump.
    The Boogaloo movement experienced a further surge in popularity 
following the lockdowns that were implemented to try to slow the spread 
of the COVID-19 pandemic in the United States, and the Tech 
Transparency Project observed that the Boogaloo groups appeared to be 
encouraged by President Trump's tweets about ``liberating'' States 
under lockdown.
    The Tech Transparency Project also found that 60 percent of 
Boogaloo Facebook groups had emerged following the pandemic lockdowns, 
during which time they amassed tens of thousands of adherents.
         the alt-right and government contractors and employees
    The presence of the alt-right in instigating violence at peaceful 
protests is not new.
    In 2018, I offered an amendment during full committee markup of 
H.R. 6374, the ``Fitness Information Transparency Act of 2018'' or the 
``FIT Act,'' after it came to my attention that a National security 
clearance holder was part of a White supremist group and had traveled 
to Charlottesville to participate in violent acts against others.
    On July 6, 2018, by PBS Frontline about Michael Miselis, an active 
member of the California-based Rise Above Movement (RAM), a well-known 
violent White supremacist group.
    Mr. Miselis has a security clearance and worked for Northrup 
Grumman, a major defense contractor, at the time he engaged in physical 
violence against persons protesting racism and White supremacy in 
Charlottesville, Virginia.
    In May 2018, Northrup Grumman was informed of Mr. Miselis' 
membership in RAM and the violent assaults he initiated while he was in 
Charlottesville participating in activities in support of White 
supremacy, which were captured on video and in photos.
    Mr. Miselis worked for a Government contractor and held a security 
clearance authorizing him to work on projects that were of vital 
interest to our Nation and its defense.
    Northrup Grumman did not dismiss him until the story broke that Mr. 
Miselis engaged in at the White supremacists' rally held in 
Charlottesville, Virginia.
    The violence of RAM members has been a hallmark of the group and 
its members.
    The Anti-Defamation League describes RAM as a White supremacist 
group whose members believe they are fighting against a ``modern 
world'' corrupted by the ``destructive cultural influences'' of 
liberals, Jews, Muslims, and non-White immigrants.
    For this reason, I offered a Jackson Lee Amendment establishing an 
``Exigent Circumstances Fitness Determination Review'' process for this 
bill.
    The stated that ``The Chief Security Officer may conduct an 
immediate review of a contractor employee's fitness determination when 
a contractor employee has engaged in violent acts against individuals, 
property, or public spaces based on the contractor employee's 
association with persons or organizations that advocate, threaten, or 
use force or violence, or any other illegal or unconstitutional means, 
in an effort to prevent others from exercising their rights under the 
Constitution or laws of the United States or of any State, based on 
factors including, at a minimum, race, religion, National origin, or 
disability.''
    The United States is a Nation of laws, which gives us the freedom 
to agree and most importantly disagree with not only each other, but 
with our Government.
    But the limitations to the right to disagree can be best described 
by the ancient wisdom: ``Your right to swing your arms ends just where 
the other person's nose begins.''
    There is a limit to the expression of free speech and the freedom 
to assemble and that limit is violence.
    The awarding of security clearances to contractors must be better 
managed and the consequences for involvement in activities that would 
be cause for dismissal from the armed services or any Federal agency 
should not go unnoticed.
    Most resently, a Coast Guard lieutenant was accused of stockpiling 
firearms and drafting a hit list of prominent Democrats and 
journalists.
                            austin bombings
    On March 2, 2018, the first of 7 bombs were detonated in what 
became a terrorizing series of attacks that killed Anthony Stephan 
House, 39, and Draylen Mason, 17.
    The video left by the bomber has never been released, but the 
committee should have had a briefing on the video to better understand 
the attacks that occurred.
    In the last decade, domestic terrorism has become an increasing 
concern in the United States.
    In 2019, domestic extremists killed 42 people in the United States 
making it the sixth most deadly year since 1970.
    In 2018, domestic extremists killed at least 50 people in the 
United States, a sharp increase from the 37 extremist-related murders 
documented in 2017, though still lower than the totals for 2015 (70) 
and 2016 (72).
    The 50 deaths made 2018 the fourth-deadliest year on record for 
domestic extremist-related killings since 1970.
    According to an analysis by the Washington Post, between 2010 and 
2017, right-wing terrorists committed a third of all acts of domestic 
terrorism in the United States (92 out of 263), more than Islamist 
terrorists (38 out of 263) and left-wing terrorists (34 out of 263) put 
together.
    An unpublished FBI data leaked to the Washington Post in early 
March 2019 reveal that there were more domestic terrorism-related 
arrests than international terrorism-related arrests in both fiscal 
year 2017 and fiscal year 2018.
    From 2009 to 2018 there were 427 extremist-related killings in the 
United States. Of those, 73.3 percent were committed by right-wing 
extremists, 23.4 percent by Islamist extremists, and 3.2 percent by 
left-wing extremists.
    In short, 3 out of 4 killings committed by right-wing extremists in 
the United States were committed by White supremacists (313 from 2009 
to 2018).
    The culmination of the 2016 mid-term election was consumed by bombs 
placed in the mail addressed to Democrats.
    As the Nation approaches the election this year--we must be mindful 
of the need to support local law enforcement efforts to stop terrorist 
acts before they occur.
    I strongly believe that more can and should be done to limit the 
threat that Boogaloo and Proud Boys poses, which is why I am offering 
an amendment the the fiscal year 2021 NDAA.
    The amendment directs that the drafting of report to Congress in 
not less than 180 days the results of its evaluation as to the extent, 
if any, of the threat to National security posed by domestic terrorist 
groups and organizations motivated by a belief system of White 
supremacy, such as the Proud Boys and Boogaloo.
    I thank the Chairman, and I look forward to the testimony of 
today's witnesses.
    Thank you.

    Mr. Rose. I now welcome our panel of extraordinary and 
esteemed witnesses.
    Our first witness is J.J. MacNab, a fellow at the Program 
on Extremism at The George Washington University. Ms. MacNab is 
one of the foremost experts on anti-Government extremism and 
militia groups in the whole country.
    Our second witness is Dr. Heidi Beirich, co-founder and 
executive vice president of the Global Project Against Hate and 
Extremism. Dr. Beirich has more than 2 decades of experience 
studying and fighting extremism, including leading the Southern 
Poverty Law Center's Intelligence Project.
    Our third and final witness is Jack Donahue, a fellow at 
the Miller Center for Community Protection and Resilience at 
Rutgers University. Mr. Donahue is the former chief of 
strategic initiatives at the New York City Police Department 
and brings to this discussion a breadth of experience from his 
time as a leader in NYPD.
    Mr. Donahue, thank you for, as well, your extraordinary 
service to New York City with the men in blue, the greatest 
police department not only in the history of the country but, I 
believe, the history of the world. So thank you for your 
extraordinary service to this country----
    Mr. Donohue. Thank you.
    Mr. Rose [continuing]. And great city.
    Without objection, the witnesses' full statements will be 
inserted in the record. I would now ask each witness to 
summarize his or her statement for 5 minutes, beginning with 
Ms. MacNab.

 STATEMENT OF J.J. MAC NAB, FELLOW, PROGRAM ON EXTREMISM, THE 
                  GEORGE WASHINGTON UNIVERSITY

    Ms. MacNab. Thank you.
    Chairman Rose, Ranking Member Walker, and the distinguished 
Members of the subcommittee, thank you for giving me the 
opportunity to testify today.
    I am a research fellow at George Washington University's 
Program on Extremism, but the remarks and opinions I am going 
to express are my own.
    I am here to talk about the militant segment of the anti-
Government extremist movement, people who want to change or 
topple the country by force or threat of force.
    Like any large movement, this group goes through cycles. In 
the months following the 2016 election, alt-right and White 
supremacy groups experienced a meteoric rise, and militant 
extremists either joined these movements or went relatively 
quiet.
    In general, they approve of the current administration, and 
so their anti-Government rage abated for a time. However, 
renewed conversations about gun control laws, stress from the 
COVID-19 pandemic, the mainstreaming of deep state and anti-
vaccine conspiracy theories, high unemployment rates, civil 
unrest in major U.S. cities, and the extreme divisiveness 
plaguing the upcoming election have triggered a recent rebirth 
in the militant groups.
    The movement is not monolithic. For example, the Oath 
Keepers, whose membership include police officers, active-duty 
military, and military veterans, has shifted from armed 
standoffs with Federal agents to providing arms support to 
small businesses violating stay-at-home pandemic orders and 
organizing armed guards to protect neighborhoods from ``leftist 
violence.''
    The Three Percenters organization is a hybrid between a 
private paramilitary militia network and a gun club. This group 
believes that they only need 3 percent of Americans to band 
together to overthrow the current U.S. Government. Since each 
sub-group is independent of the others, there is no central 
leadership or structure. So, despite their large numbers, 
infighting has kept them from becoming a significant force.
    The private paramilitary militias are a much smaller 
segment of the overall movement. Scattered throughout the 
country, these groups engage in armed training, have a 
relatively organized structure within each local chapter, and, 
even though many States prohibit their activities, they operate 
with impunity.
    The newest segment, as people have mentioned, is the 
Boogaloo movement. The idea of a second American revolution, 
where armed patriots rise up and overthrow a tyrannical 
Government, has been the dream of militant extremists for 
decades. Most have called it the Second American Revolution, 
but denizens of the weapons boards on 4Chan and Reddit renamed 
it the ``Boogaloo,'' which later turned into ``big luau'' and 
``big igloo.'' Supporters started wearing Hawaiian shirts under 
their body armor and weapons, and the look went viral. Other 
militants started copying the shirts, patches, and jargon. For 
most, it was just an in-joke, a tribal aesthetic that separated 
those who were in the know from those who weren't. Most 
Boogaloo members are libertarian anarchists who hate cops. The 
goal is to hasten the collapse of the Government through 
attacks on police.
    These are the major players. How they react to current 
events and to each other raises many red flags. For example, I 
am worried that any attempt to pass gun-control legislation 
could trigger one or more significant violent events. This 
could include red-flag laws, bans of certain types of rifles, 
or any legislation that is viewed as a foot in the door leading 
to gun confiscation.
    Another potential issue is the COVID-19 pandemic, which is 
placing significant stress on extremist groups. If States 
return to lockdown status, I am concerned that individuals and 
small groups will lash out violently against Government, law 
enforcement, medical professionals, essential workers, contact 
tracers, and medical infrastructure.
    Some militants, driven by conspiracy theories, have already 
turned to armed resistance at re-open rallies and have taken up 
guns to protect business owners who want to violate stay-at-
home orders. Michigan has been one hotspot for such activity, 
and, in May, the State had to cancel a legislative session 
because of the armed threat.
    I am also concerned that the upcoming election will spark 
one or more violent events if the President loses his 
reelection bid.
    The risk that worries me most right now, though: I am 
concerned that there will be a shootout at one or more of the 
Black Lives Matter protests. There are too many guns at these 
events held by too many groups with conflicting goals.
    You could find the Oath Keepers taking to the streets to 
protect police or businesses from Antifa, while Boogaloo 
members join forces with Black Lives Matter against the police. 
Add in the National Guard and a sudden influx of Federal 
agents, alt-right agitators, and White supremacist groups, 
along with a growing number of left-wing militants and 
volunteer armed guards, there is a potential street war 
brewing.
    There are militant groups and individuals willing to shoot 
at or bomb random police and protesters just to get that street 
war started so they can use the resulting chaos to accelerate 
their own plans for revolution. These groups know they need a 
catalyst, a big event. They need a Ruby Ridge or Waco so they 
can be the next McVeigh. Most are waiting for the big event, 
but there are some who will do what they have to to force its 
occurrence.
    Thank you for your time.
    [The prepared statement of Ms. MacNab follows:]
                   Prepared Statement of J.J. MacNab
                             July 16, 2020
                              introduction
    Anti-Government extremism is a loose-knit movement of right-wing 
groups including private paramilitary ``militias,'' Three Percenters, 
Oath Keepers, sovereign citizens, tax protesters, and ``Constitutional 
sheriffs.'' It is often referred to as the Patriot Movement, but that 
label has faded in recent months as different factions have moved 
toward libertarian anarchy while other subgroups have adopted fascist 
themes and beliefs.
    Over the years, sovereign citizen schemes have taken root in some 
left-wing groups including the Moorish Science Temple and prepper 
communities, and in the last 2 months, there has been a noticeable rise 
in left-wing private paramilitary groups. The right-wing/left-wing 
labels may not be as clear as they once were, but the overwhelming 
majority of anti-Government extremists are still right-wing.
    One of the most common misconceptions held by both the press and 
public is that anti-Government extremism and White supremacy are the 
same movement. While there is some overlap in geographic areas where 
White supremacy is more common in the general population, the 
intersection is small elsewhere.
    The FBI divides their counterterrorism priorities into 4 distinct 
categories: Racially motivated violent extremism, anti-Government/anti-
authority extremism, animal rights/environmental extremism, and single-
issue extremism.\1\ This distinction is important in understanding 
everything from choice of targets to which methods or techniques are 
used by those who chose to turn their beliefs into violent acts. For 
example, a racist who is primarily active in the White supremacy 
movement will likely chose victims who represent a threat to his White 
supremacist beliefs with the eventual goal of starting a race war. A 
person, even if he is a bigot or racist, whose primary extremist 
ideology is anti-Government or anti-authoritarian will likely target 
Government officials, law enforcement, Government buildings, and the 
press in hopes of starting a violent revolution. Both movements want to 
tear the Nation apart, to accelerate the downfall of society so that 
they can rebuild it to fit their idea of utopia, but they have 
different visions of what that utopia entails. Most of them think that 
war is inevitable; some of them are hoping to hasten its arrival by 
engaging in violence.\2\
---------------------------------------------------------------------------
    \1\ ``The Evolving and Persistent Terrorism Threat to the 
Homeland,'' speech delivered by Matthew Alcoke, FBI Deputy Assistant 
Director, Counterterrorism Division, November 19, 2019.
    \2\ ``Order from Chaos: Riots, White supremacy, and 
accelerationism,'' by Daniel L. Byman, Lawfare.com, June 1, 2020.
---------------------------------------------------------------------------
    This report will be limited to recent trends in the Anti-Government 
Extremist movement but will include information on the White Supremacy 
Movement when the 2 groups intersect.
                            the participants
    With the rise of the Alt-Right and the rapid growth of the White 
supremacy movement following the 2016 general election, many anti-
Government groups and organizations faded into the background until 
recent months. Some, sovereign citizen and tax protesters, for example, 
have stayed in the background.
    Renewed conversations about gun control laws and restrictions, the 
COVID-19 pandemic, the recent mainstreaming of ``deep state'' and anti-
vaccine conspiracy theories, high unemployment rates, civil unrest in 
major U.S. cities, and the extreme divisiveness plaguing the upcoming 
general election have triggered a recent rebirth in the segment of the 
movement that focuses on firearms.
                              oath keepers
    Once a vibrant organization that boasted tens of thousands of 
active supporters, the Oath Keepers have a smaller base today and their 
activities range from providing armed support to small businesses 
violating stay-at-home COVID-19 pandemic orders to organizing armed 
guards to protect neighborhoods from ``leftist violence.''
    In the past, the Oath Keepers participated in armed stand-offs 
against Federal agents in Nevada, Oregon, and Montana. Recently, the 
Oath Keepers have been extremely active in building up the image of 
Antifa as a violent, organized, domestic terrorism group and their 
founder recently expressed frustration that President Trump did not 
retake the cordoned-off protest area in Seattle (CHAZ/CHOP) with force.
    Ironically, they are advocating the use of guns against law 
enforcement trying to enforce stay-at-home orders and Federal land 
laws, but they consider themselves a pro-police organization. Their 
membership includes several police officers, active-duty military, and 
military veterans.
    The group was recently de-platformed on Discord but they still have 
a very active Facebook presence with 551,000 followers on their main 
page.
                            three percenters
    This group believes that only 3 percent of colonists fought in and 
won the Revolutionary War against the British; therefore, they only 
need 3 percent of Americans today to band together to overthrow the 
current U.S. Government. To become a participant, you only need to hold 
yourself out as one, usually by wearing a patch or a III percent 
tattoo, so their social media presence is very large, and they network 
primarily on Facebook. Since each subgroup is independent of the 
others, there is no central leadership or structure, and infighting has 
kept them from becoming a significant force.
    Three Percent groups participated in several stand-offs against the 
Government between 2014 and 2016, were present at the Charlottesville 
``Unite the Right'' rally in 2017 and have recently provided armed 
support at Re-Open rallies and Confederate monuments sites.
    There is significant overlap with the Oath Keepers, the Militia 
Movement, and with Boogaloo adherents.
                              the militias
    Scattered throughout the country, these private paramilitary groups 
engage in armed training, have a relatively organized structure withing 
each group, and even though many States prohibit their activities, they 
operate with impunity.
    In recent years, they have engaged in armed stand-offs with Federal 
agents, kidnapped and held immigrants on the border with Mexico, 
provided armed support at the Charlottesville Unite The Right rally in 
2017, and have guarded Confederate and other monuments in several 
States.
    Militias vary in their attitude toward race. Some openly welcome 
men and women of all races while others are tightly focused on White 
supremacist beliefs and goals.
                    left-wing militias and gun clubs
    The newest entry to the militant world is the left-wing militia and 
gun clubs. This includes small groups such as the John Brown Gun Club/
Redneck Revolt and the Socialist Rifle Club to the newly-formed Latino 
Rifle Association and the NFAC black militia that made its debut in 
Georgia on the 4th of July.
    To date, armed left-wing militias and gun clubs have generally 
arisen in response to the perceived threat from armed right-wing 
militias, Three Percenters, and Oath Keepers, but some express strong 
anti-police and anti-Government beliefs.
  <bullet> On July 13, 2019, an Antifa activist and member of the Puget 
        Sound John Brown Gun Club and was shot and killed when he 
        attempted to blow up an ICE detention facility in the State of 
        Washington.\3\
---------------------------------------------------------------------------
    \3\ ``Willem Van Spronsen aka Emma Durutti: 5 Fast Facts You Need 
to Know,'' by Tom Cleary, Heavy.com, September 24, 2019.
---------------------------------------------------------------------------
                              the boogaloo
    The idea of a second American revolution, where armed patriots 
gather, rise up, and overthrow the tyrannical Government has been the 
dream of the anti-Government extremist movement for decades. Most 
called it the second American Revolution, others ``Revolution 2.0,'' 
but the denizens of the weapons forums on the 4Chan /k/ board and on 
reddit renamed it ``Civil War 2: Electric Boogaloo.''
    A few years ago, there was an on-going joke on social media to cast 
any mediocre sequel as an ``electric boogaloo.'' This was a hat tip to 
the 1980's sequel ``Breakin' 2: Electric Boogaloo.'' The ``Civil War 2: 
Electric Boogaloo'' theme was spread using humor and memes which were 
carried over to other social media platforms.
    By the time the Boogaloo theme moved to Facebook and Instagram, it 
was picked up by other anti-Government militants.
    By early 2020, ``Boogaloo'' had morphed into ``Big Luau,'' and 
supporters started wearing Hawaiian shirts under their body armor and 
weapons, and then ``Big Igloo.'' They called themselves Boogaloo Bois, 
Boog Bois, the Boojahideen, and dozens of other names.
    When several militants wearing Hawaiian shirts and sporting 
Boogaloo patches were seen at the January 20, 2020 gun rally in 
Richmond, VA, word spread on Facebook among gun and anti-Government 
groups and pages. People started copying their look, patches, and 
jargon. For most, it was just an in-joke, an aesthetic that separated 
those in the know from those who weren't.
    But when a movement is no deeper than a special look or a shared 
set of memes, anyone can join. White supremacist and Neo Nazi groups on 
Discord and Telegram started calling themselves Boog Bois, and on 
Facebook, anti-Government extremists from the Oath Keepers, Three 
Percent groups, and militias donned Hawaiian shirts and joined in on 
the joke, even though many of them didn't share the Boogaloo movement's 
extreme animosity toward law enforcement.
  <bullet> On March 12, 2020, police raided a home in Potomac, MD, 
        killing 21-year-old Duncan Lemp, a Boogaloo adherent who 
        participated in ``Boog'' Facebook groups and on militia 
        websites. The movement had found both a martyr and a plan; they 
        would take up arms to protest in the name of people who had 
        been killed by law enforcement.
    While the White supremacy side of the movement was relatively small 
but active on Discord and Telegram, the non-racist, libertarian, anti-
Government side grew rapidly on Facebook, seemingly unaware of that 
Neo-Nazi groups and hard-core racists were co-opting their look and 
jargon. When the racist side tried to post on the non-racist Facebook 
pages and groups, they were usually kicked out and mocked by the 
moderators.
    Early press reports focused only on the White supremacy side of the 
movement, while ignoring the much larger, racially diverse libertarian 
side who had started to show up armed at protests and rallies, siding 
with Re-Open protesters and Black Lives Matter activists in cities 
around the country.
    The primary motivation for this side of the movement is chaos; and 
their primary target is the police.
  <bullet> On April 11, 2020, a 36-year old Texan started livestreaming 
        on Facebook as he drove around town, looking for police 
        officers to ambush and execute.
    Since the majority of participants were radicalized elsewhere prior 
to donning a Hawaiian shirt--either in anti-Government militant groups 
such as the Three Percenters or the militias, or in White supremacy 
groups--the Boogaloo shouldn't be considered an independent movement at 
this time. This could change if they continue to recruit teenagers and 
young men for whom these Facebook pages and groups are their first 
taste of extremism.
    Discord recently removed the largest Boogaloo server, reddit has 
closed down the main Boogaloo subreddit, and Facebook and Instagram 
both removed a sizable network of Boogaloo accounts, pages, and groups 
from their platform. This is likely a temporary fix, as these groups 
are very good at rebranding their efforts to avoid being banned, and 
some have moved to alternative social media such as MeWe, Parler, and 
Gab.
                           potential concerns
1. Gun Control legislation could trigger one or more significant 
violent events.
    Last summer, a trio of high-profile shootings reinvigorated the 
National debate on gun control legislation.
  <bullet> On July 28, 2019, a 19-year-California man shot and killed 3 
        people, injured 17 others at a festival before committing 
        suicide. He left his final statement on Instagram, advising 
        those who wanted to understand his motive to read a text used 
        by both White Supremacist group and the Church of Satan. He 
        left behind a list of potential targets which has not yet been 
        made public.
  <bullet> On August 3, 2019, a 21-year-old Texas man shot and killed 
        23 people at a Walmart, injuring 23 others. He posted a 
        manifesto on the 8chan website citing White supremacist and 
        anti-immigrant reasons for the mass killing. He is awaiting 
        trial.
  <bullet> On August 4, 2019, a 24-year-old man killed 9 and wounded 17 
        others at a bar in Ohio before police shot and killed him. His 
        political leanings were left-wing and on Twitter he had 
        expressed interest in the Texas shooting the night before. His 
        motives are unknown.
    As a result of these and earlier mass shootings, several States 
started discussing the introduction of red flag law legislation that 
would enable police and family members to remove firearms from 
dangerous people.\4\
---------------------------------------------------------------------------
    \4\ ``What Are `Red Flag' Gun Laws, and How Do They Work?'' by 
Timothy Williams, NY Times, August 6, 2019.
---------------------------------------------------------------------------
    At the Third Democratic Debate on September 12, 2019, then-
Candidate Beto O'Rourke told moderator David Muir, ``We're going to 
take your AR-15, your AK-47. We're not going to allow it to be used 
against our fellow Americans anymore.''
    Both the Red Flag discussions and the O'Rourke pledge enraged the 
militant side of the anti-Government movement, many of whom believe 
that any form of gun confiscation will be the triggering event for the 
next Revolution.
  <bullet> On November 24, 2020, a 28-year-old military veteran began 
        livestreaming a stand-off with police on his Instagram account. 
        He claimed that he had been ``red-flagged'' by a coworker and 
        that the police were there to confiscate his firearms. They had 
        actually gone to his home to investigate a domestic violence 
        claim, but that was not revealed until later. He told viewers 
        that this was the beginning of the Boogaloo, the revolutionary 
        war that they had all been anticipating. By the end of his 6-
        hour stand-off, 130,000 people were watching his feed, and 
        rumors spread about militias and Three Percenters driving to 
        his home to face the police by his side.
    In the November 19, 2019 election, Virginia Democrats, running on a 
gun control platform, took control of the Virginia State Assembly and 
the State Senate. As soon as they were sworn into office, they 
introduced the legislation promised during their campaigns and gun 
activists held a rally on January 20, 2020 at the Virginia State 
Capitol to protest this legislation. While a typical, large protest or 
rally for the movement draws between 200 and 500 people, 22,000 firearm 
owners, many of them armed, showed up in Richmond for the event. A 
small number of left-wing gun groups showed up as well, but since they 
had a shared interest with the right-wing groups--protesting gun 
control measures--the event was peaceful. A handful of the rally 
participants wore Hawaiian shirts under their body armor which prompted 
significant interest in what had been relatively small Boogaloo groups 
on Facebook.
  <bullet> Four days before rally, the FBI arrested 3 members of The 
        Base, a Neo-Nazi paramilitary group, on their way to Richmond. 
        Their plan was to shoot into the crowd to start a violent, 
        chaotic melee.
2. The COVID-19 pandemic is placing significant amount of strain on 
extremist groups. If States return to a lock-down status, I'm concerned 
that individuals and small groups will lash out violently against 
Government, law enforcement, medical professionals, essential workers, 
contact tracers, and our medical infrastructure.
    Most Americans are anxious about the spread of the virus. We're 
worried about our health, the health of our families and friends, the 
country's economy, and the stress being put on our health care systems.
    Anti-Government groups, driven by anti-vaccine conspiracy theories 
and the belief that the virus is a hoax being used to exert control 
over Americans, have, in some cases, turned to armed resistance.
  <bullet> On March 24, a Missouri man died in a shoot-out with police. 
        He had been planning to use a car bomb to blow up a hospital 
        treating coronavirus patients in hopes of triggering a violent 
        revolution.
  <bullet> In April and May, numerous ``Re-Open'' rallies took place at 
        State capitols around the country. Three Percenters, Oath 
        Keepers, and militia participants, some in Boogaloo attire, 
        have provided armed support for these events. They demanded 
        that their State Governors rescind any stay-at-home orders and 
        allow businesses to reopen immediately. Michigan was a hot spot 
        for such activity and on May 14, 2020, the State had to cancel 
        a legislative session because of the armed threat.\5\
---------------------------------------------------------------------------
    \5\ ``Michigan Cancels Legislative Session to Avoid Armed 
Protesters,'' by David Welch, Bloomberg, May 14, 2020.
---------------------------------------------------------------------------
  <bullet> Also in April and May, a handful of hair salons, bars, and 
        tattoo parlors violated stay-at-home orders and were protected 
        from the police by armed militants, Oath Keepers, and Boogaloo 
        participants.
  <bullet> On June 11, 2020, a New York man, angry that he wasn't 
        allowed to enter a hospital to see his friend because of COVID-
        19 restrictions, left and returned to the hospital with a 
        backpack filled with 3 explosive devices, a hatchet, handcuffs, 
        a BB gun, and ammunition.
    Facebook, Instagram, and YouTube are filled with extremist threats 
against health care professionals who they believe are inflating COVID-
19 numbers and hiding real cures. Contact tracers are another potential 
target as are essential workers who ask them to wear a mask before 
entering a store or restaurant. When a vaccine becomes available, a 
fairly large number of anti-Government extremists will likely refuse. 
Many believe that the vaccine is part of nefarious plot to track them 
with embedded microchips or to weed out undesirables.
3. The recent killing of George Floyd by police has brought together 
large groups of people protest police practices and abuses. A rapidly 
growing number of people at these events are armed.
    Guns are common denominator in most anti-Government extremist 
groups. Racism is not. For that reason, you could find the Oath Keepers 
taking to the streets to protect police from Antifa while Boogaloo 
members join forces with Black Lives Matter against the police. Add in 
the National Guard, miscellaneous Federal agencies, and White 
supremacist groups to the mix along with a growing number of left-wing 
activists and militant groups who have started carrying firearms, and 
there's a potential street war brewing.
    Furthermore, there are groups and individuals willing to use the 
chaos inherent in civil unrest to accelerate their own plans for a 
revolution.
  <bullet> On May 29, 2020, using the confusion of a Black Lives Matter 
        protest as cover, 2 ``Boogaloo'' participants shot 2 Federal 
        security officers in California, killing 1. A week later, one 
        of the shooters, an active-duty Air Force Sergeant, ambushed 
        and shot 2 Sheriff deputies, again killing 1. Before he was 
        arrested, he scrawled a Boogaloo message in blood on the car 
        he'd stolen to escape arrest. He is awaiting trial at this 
        time.
  <bullet> On May 30, 2020, 2 military veterans and 1 active-duty 
        military man plotted to attack police at a Black Lives Matter 
        protest using guns, explosives, fireworks, and gasoline. All 3 
        were Boogaloo adherents who had met at a Re-Open rally in Las 
        Vegas. Their plan, thwarted by their arrest, was to incite 
        chaos in the crowd.
4. Antifa as the Fictional Enemy
    Known for confronting racists and right-wing militant groups at 
protests, causing property damage, and engaging in street violence, the 
various subgroups that make up Antifa are not without fault. They are 
not however, the hyper-violent army that anti-Government extremists 
make them out to be.
    Recently, there have been a number of hoaxes, fake social media 
accounts, that claim Antifa is plotting violence against average 
citizens. One such rumor claimed that there were ``busloads of Antifa'' 
heading to small towns and suburbs for the purpose of terrorizing those 
communities. Armed militants gathered to protect these towns and 
neighborhoods, unaware of that they had fallen for a hoax.
    Such trolling is problematic because it heightens the anger of the 
anti-Government extremists at a time when they are already extremely 
stressed and eager for confrontation.
5. The upcoming Presidential Election could spark one or more violent 
events.
    In general, the anti-Government movement is right-wing and most 
support President Trump. The non-racist side of the Boogaloo proponents 
are the exception in that consider themselves Libertarian and therefore 
prefer Jo Jorgensen. There is already significant chatter about the 
possibility for a Civil War and armed civil unrest in the event Trump 
loses his reelection bid, but single actor and small cell violent acts 
would be more likely.
                                summary
    Between gun control issues, civil unrest, the stresses placed on 
the country by a deadly pandemic, conspiracy theories, anti-press 
sentiments, and a highly divisive election cycle, the Nation is one 
large event away from violence.
    In the past, the Ruby Ridge and Waco standoffs were the catalysts 
that drove Timothy McVeigh to terrorism. Such catalysts today could 
include heavy-handed use of the American military on civilians/
protesters, a street war that turned lethal, or the Government using 
excessive force against what turned out to be an imaginary or 
exaggerated enemy.
    Anti-Government extremists are aware that their plans for a 
revolution or ``Civil War 2'' require that catalyst. Most are waiting 
for that big event, but some will do what they have to force its 
occurrence.

    Mr. Rose. Thank you for your testimony, ma'am.
    We will now recognize Mr. Donahue to summarize his 
statement for 5 minutes.

STATEMENT OF JOHN K. DONOHUE, FELLOW, RUTGERS UNIVERSITY MILLER 
  CENTER FOR COMMUNITY PROTECTION AND RESILIENCY, FORMER NYPD 
                 CHIEF OF STRATEGIC INITIATIVES

    Mr. Donohue. Thanks. Thank you very much.
    Good morning, Chair Rose, Ranking Member Walker, Members of 
the subcommittee, and Chair Thompson. I am John Donahue, a 
fellow at the Rutgers University Miller Center and recently 
retired 3-star chief from the New York City Police Department, 
with 32 years of assignments in patrol, intelligence, and 
strategy.
    The opinions I am giving today are my own.
    I am pleased to testify to discuss the serious public 
safety concerns and, specifically, challenges to law 
enforcement raised by the growing phenomenon of cyber-social 
militia extremism and the power of on-line movements to 
influence violent action domestically.
    To begin, the use of social media for promoting ideas and 
opinions is well-documented. These platforms are mobile and 
near-ubiquitous. Here in the United States, we cherish the 
Constitutional right for freedom of speech and assembly, and 
social media has been embraced by many to share ideas and 
opinions on any topic at any time.
    What is recently observable from social media data is that 
there is an exponential growth in participation in the cyber-
social domain coalesced around revolutionary and extremist 
themes at either ends of the ideological spectrum. Those 
extremists have law enforcement squarely in their sights.
    In the earliest stages of the ISIS caliphate, social media 
was used effectively to motivate some youth--impressionable, 
isolated, disaffected--to take up arms in support of ISIS. We 
know that recruitment started for those people on the surface 
web, social media platforms, and gradually moved to encrypted 
communications to shield criminal conversations from 
authorities. The same cycle is happening domestically with 
militia and accelerationist movements on the far right and the 
far left.
    A report I co-authored in May of this year with the Rutgers 
Miller Center and the Network Contagion Research Institute 
shows how, on social media, memes become viral and evolve and 
plant hateful and revolutionary ideas in public eye, often 
disguised as inside jokes, using code words for those in the 
know.
    The ``Boogaloo'' code word for second revolution is an 
example of that far-right militia movement. In protests over 
the pandemic lockdowns, followers played out their inside joke 
wearing Hawaiian shirts and carrying semiautomatic rifles in 
the center of a few major American cities. Memes shared on the 
Boogaloo message boards gamify assaults on law enforcement, 
encouraging violence through jargon known in the video-gaming 
community.
    While it appears the on-line militia sphere is inhabited by 
far-right extremists, they are by no means alone. In a 
forthcoming report, we at Rutgers and NCRI show that on-line 
anti-police messaging on anarchist and other far-left social 
media spaces have seen exponential growth in the most recent 
period of unrest in America.
    These anti-Government, anti-police messages have broken 
into mainstream media on Facebook and Twitter. Memes advocating 
the murder of law enforcement and slogans found on the internet 
used by the far-left were scrawled on defaced monuments and 
buildings all across America.
    Memes instructing so-called peaceful protesters that can be 
used as tactical subterfuge for violent actions are now being 
widely circulated on social media.
    What is apparent, regardless of ideology, is that assaults 
on, and the murder of, law enforcement that occurred during the 
recent civil unrest were motivated in part by the themes in the 
memes and those slogans.
    Now, it is not unusual for police to be the subject of 
protest. There has always been an inherent tension between law 
enforcement policing protests. Why? Because police are the most 
visible representatives of Government, and, here, people are 
protesting against us.
    Protest activity is a Constitutional right. We in law 
enforcement are sworn to protect that right, regardless of the 
content of the speech and no matter how controversial it may 
seem, with very limited exceptions.
    Another Constitutional right is to bear arms. Some States 
permit open carry of lawfully-owned firearms, while others 
outlaw that practice. Both have withstood Constitutional 
scrutiny, with some exceptions.
    I highlight these 2 rights because, in real life, on the 
streets, when tens or tens of thousands of people are 
assembled, explaining the finer points of Constitutional law or 
rationality just doesn't work. That is why police are generally 
at a disadvantage and specifically challenged when they become 
the targets of the protest, as is more recently observable on 
the right and on the left.
    Intelligence gathering brings its own tension and 
limitations. Law enforcement needs information to prepare for 
the safety of all of these incidents. That is smart Government. 
There are safeguards in place to prevent overreach.
    Frankly, what law enforcement needs and what is out there 
comes from open source, with one big exception. When people use 
encrypted communications, police have zero visibility into 
those channels. That is where tactics and opportunities for 
confrontations are shared.
    Law enforcement has a tough task when policing protest 
events in the best of times, but when protesters arrive intent 
on violence or occupation and are carrying semiautomatic 
weapons, the stakes grow exponentially. Accelerationists and 
militia members know this and seize upon opportunities to 
amplify their message through direct confrontation with police.
    What can be done? Despite social media efforts to minimize 
the availability of extremist messages, they persist. To be 
certain, social media companies are not in the position to 
identify those who will mobilize to violence. Law enforcement 
must remain vigilant and identify them before they act. But the 
time frame may be remarkably short. While law enforcement is 
the last line of defense against extremists who mobilize to 
violence, it may be their own lives that they save, because 
they have become the ultimate target.
    The outcome for the militia and revolutionary extremist on-
line movements are not predictable. The time for acknowledging 
this phenomenon and rapidly working to preserve civil society 
is upon us, and I thank you for having this hearing.
    [The prepared statement of Mr. Donohue follows:]
                 Prepared Statement of John K. Donohue
                        Thursday, July 16, 2020
    Good morning Chair Rose, Ranking Member Walker, and Members of the 
subcommittee. I am John Donohue, a fellow at Rutgers University, Miller 
Center for Community Protection and Resilience and a recently retired 
chief of the New York City Police Department (NYPD) having spent 32 
years in service of the people of New York in a variety of assignments, 
notably in patrol, policy, strategy, and intelligence. I am pleased to 
testify before your subcommittee today to discuss the significant 
public safety concerns and, specifically, challenges to law enforcement 
raised by the growing phenomenon of cyber-social militia extremism and 
the power of on-line movements to influence violent action 
domestically.
                                overview
    The use of social media for promoting ideas is well-documented. 
These technology platforms, now mobile and near-ubiquitous, have 
usurped the traditional venues of the public square and printed 
newspapers for communicating the concerns, likes, and desires of 
hundreds of millions of people world-wide. Here in the United States, 
where we cherish the Constitutional right to speak freely, assemble, 
and protest, social media has been embraced by virtually everyone with 
access to the internet to share their opinions on any topic, at any 
time. The ability to garner an audience to any cause beyond mere 
affinity, however, considering the vast number of people on the vast 
number of social media platform, requires a few more powerful 
ingredients. Before the COVID-19 pandemic, these ingredients--social 
isolation, vast unemployment, fear of changing social order, and the 
most powerful ingredient, a perceived martyr for the cause--existed to 
a much lesser degree. During the pandemic, in contrast to any previous 
time in world history, those ingredients have dramatically come into 
alignment. What is observable and quantifiable from social media data 
is an exponential growth in participation in the cyber-social domain 
that has coalesced around revolutionary extremist themes at either end 
of the ideological spectrum. And those revolutionary extremists have 
Federal, State, and local law enforcement squarely in their sights. The 
outcomes are not predictable, and the time for acknowledging this 
phenomenon and rapidly working to preserve civil society is upon us.
                  cyber-social domain for recruitment
    In the internet, as in all media, content is king. Recent history 
is rife with the use of social media content to recruit people to a 
cause. In less than a generation, the hashtag ``#'' has become the 
easiest way of identifying--and identifying with--a message. Merely 
clicking like, commenting on, or sharing content serves to boost those 
messages. Add memes or brief videos to the content and the message will 
meet the desired audience, literally in the palm of their hand. In a 
few cases some messages ``go viral'' into the mainstream, where even 
casual users of social media will be exposed to the content. We've seen 
this in the #bringbackourgirls and #metoo movements. To accelerate a 
message, add issues with intense emotional attachment, such as 
religious or strongly-held political beliefs, and the content can 
become a tool of recruitment to further activity of the cause.
    For example, we know that in early 2013 and 2014 in the earliest 
stages of the ISIS caliphate, the use of social media motivated some 
youth, impressionable, isolated, disaffected, and religiously 
influenced, to leave their homes, including here in the United States, 
and take up arms in support of Abu-bakkar Al Baghdadi and ISIS. Social 
media companies were slow to respond in blocking content that drew 
youth into that sphere. Some criminal cases showed once a person was 
drawn into the movement and became engaged in social media (liking, 
sharing, posting, creating content) they could be recruited into a much 
deeper level of involvement. That's when conversations migrate from the 
surface web, to deep web forums and to encrypted communication 
platforms in which there is no visibility.
    The same cycle is happening domestically with militia movements of 
the far-right and far-left. The report I co-authored in May of this 
year for the Rutgers University Miller Center and Network Contagion 
Research Institute (NCRI)\1\ demonstrates how on social media 
sensational memes become viral and evolve, permitting extremists to 
plant hateful or revolutionary ideas in the public eye, often disguised 
as inside jokes or codewords for those ``in the know.'' The Boogaloo, 
big igloo, or big luau, code for the second revolution, is an example 
of the far-right militia movement. In protest of the recent pandemic 
lockdowns, followers of the movement played out the inside joke by 
wearing Hawaiian shirts and carrying semi-automatic rifles in the 
center of a few major cities. The volume and intensity of posts with 
Boogaloo affinity on reddit doubled in 1 year through April 2020.\2\ 
Among the Boogaloo meme contributors are those who ``gamify'' assaults 
on police and law enforcement, encouraging violence through jargon 
known in the video gaming community.
---------------------------------------------------------------------------
    \1\ Finkelstein, Donohue, Goldenberg, Baumgartner, Farmer, 
Zannettou, & Blackburn (2020) COVID-19, Conspiracy and Contagious 
Sedition: A Case Study on the Militia-Sphere. The Network Contagion 
Research Institute. (on-line at www.ncri.io/reports/covid-19-
conspiracy-and-contagious-sedition-a-case-study-on-the-militia-sphere/
).
    \2\ Id.
---------------------------------------------------------------------------
    While it appears that the preponderance of the on-line militia 
sphere is inhabited by far-right extremists, they are by no means 
alone. In a forthcoming report, we at Rutgers and Network Contagion 
Research Institute will demonstrate that on-line anti-police messaging 
on anarchist and other far-left social media spaces, such as on sub-
reddit forums saw exponential increases during the most recent period 
of civil unrest in America following the killing of George Floyd. These 
messages have broken into the mainstream including Facebook and 
Twitter. Memes advocating the murder of law enforcement, and slogans 
found on the internet such as ACAB, F12, 1312 used by the far-left 
appeared scrawled on the defaced monuments and buildings all over 
America. Assaults on and the murder of law enforcement that occurred 
during the recent civil unrest were motivated in part by the themes in 
these memes and slogans.\3\
---------------------------------------------------------------------------
    \3\ For example: In May 29 and June 6, 2020 respectively, David 
Patrick Underwood a Federal Protective Service contract guard and 
Sheriff Sgt. Damon Gutzwiller were murdered by a Boogaloo movement 
adherent. See also: Urooj Rahman and Colinford Mattis who were arrested 
and charged by the U.S. Attorney for the Eastern District of New York 
for allegedly firebombing a NYPD vehicle.
---------------------------------------------------------------------------
  inherent tension between constitutionally-protected activities and 
                                policing
    Among the many rights afforded to us in the First Amendment to the 
United States Constitution is that Congress cannot pass laws limiting 
freedom of speech and peaceful assembly. The Second Amendment protects 
Americans' right to keep and bear arms. The Fourteenth Amendment 
ensures those rights are protected in every State. Those rights are not 
absolute, as the Supreme Court has interpreted from time to time. For 
example, we know that reasonable time, place, and manner restrictions 
can be applied to public assembly, and reasonable restrictions exist 
with regard to commercial speech. There are also some State-specific 
laws that permit open-carry of lawfully-owned firearms, and other 
States that have outlawed that practice--both have withstood 
Constitutional scrutiny. I use these 2 amendments for examples because 
in real life, on the street, when tens, or tens of thousands of people 
are assembled is where the tension exists. In those circumstances, 
explaining the finer points of Constitutional law to a crowd just 
doesn't work, that's why police are generally at a disadvantage, and 
specifically challenged when they are the target of the protests. The 
presence of armed militia members raises the complexity and volatility 
of those situations.
    In New York City, as a police officer I wore a uniform and policed 
protests, taking care to ensure impartial treatment of those who wanted 
their message to be heard by local, State, Federal governments and even 
the United Nations. To be candid, the issue, cause, or message 
protestors share at a physical gathering, as well as a virtual one, is 
irrelevant to nearly everyone in law enforcement. That's what 
impartiality demands. We teach it in our Nation's police academies. And 
we need it in a Constitutional democracy. However, sometimes protesters 
want their message to be ``more effective,'' ``louder'' or 
``disruptive.'' They use coded words and memes to train the movement to 
conduct ``direct actions'' and ``wildcat actions.'' Many carefully 
planned protests use encrypted communication platforms to direct and 
target unlawful actions of the participants.
    Tension also exists in planning for public safety during these 
events. That's because preoperational intelligence is needed for many 
reasons. For example: Will traffic need to be rerouted? Will medical 
responders need to be prepositioned? Will there be counter-protesters? 
Will protesters engage in unlawful activity and expect to be arrested? 
How many police will be needed to ensure the safety of all parties? As 
an intelligence officer we faced these questions routinely in 
preparation for an event. Intelligence also requires answering the 
questions about the unknowns: Are the intentions of the group or 
subgroups to engage in violence? If so, will weapons be involved?
    In the past, unrestrained domestic intelligence gathering and 
activities led to lawsuits and settlements that curtailed egregious 
intelligence practices. In response, the Attorney General promulgated 
Guidelines for Domestic FBI Operations, and the FBI has the Domestic 
Intelligence Operations Guide (last updated in 2016). The New York City 
Police \4\ Department (NYPD) was sued in the 1970's for investigative 
overreach.\5\ Consequently, the NYPD has operated intelligence 
capacities under a Federal judicial consent decree that was modified 
several times to ensure effectiveness and to balance civil liberties, 
most recently in 2016.
---------------------------------------------------------------------------
    \4\ See: Retrieved July 12, 2020. https://vault.fbi.gov/
FBI%20Domestic%20Investigations%20- 
and%20Operations%20Guide%20%28DIOG%29/
FBI%20Domestic%20Investigations%20and%20- 
Operations%20Guide%20%28DIOG%29%202016%20Version.
    \5\ Handschu v. Special Services Div., 605 F. Supp. 1384 (S.D.N.Y. 
1985).
---------------------------------------------------------------------------
    Law enforcement a tough task when policing protest events in the 
best of times; when protesters arrive intent on violence and occupation 
and are carrying semi-automatic weapons, the stakes grow exponentially. 
Accelerationists and Militia members know this and seize on those 
opportunities to amplify their message of revolution through direct 
confrontation with police.
complexity of monitoring networks of individuals and identifying those 
                     who will mobilize to violence
    There are technology solutions that researchers use to quantify 
authentic growth of postings, unique events, and to discount those that 
are generated by bots. Those same technologies can help identify the 
frequency and intensity of social media postings. However, I'm not 
aware of any reliable technology that can determine true sentiment of 
social media postings beyond the stop-gap interventions employed by 
some surface web social media companies. Some companies use their terms 
of service and attempt to have users enforce community standards. The 
larger social media companies have hired people to review offensive 
posts. The tension between free sharing ideas, debate, community norms 
and corporate-message control slows social media companies' response. 
Some companies have taken action when pressured to act, with varying 
degrees of success. The results resemble a game of whack-a-mole, with 
content finding its way from one part of the net to another. Despite 
the companies' efforts to minimize the availability of extremist 
messages, those messages persist. Ultimately, social media companies 
are not in the position to identify those who will mobilize to 
violence.
    Until someone can, law enforcement must remain vigilant to identify 
the radicalized before they mobilize. The time frame for intervention, 
however, can be remarkably short. Immediately before Robert Bowers 
attacked the Tree of Life synagogue in Pittsburgh in October 2018, he 
posted on a website, ``I can't sit by and watch my people get 
slaughtered. Screw your optics, I'm going in.''
    While law enforcement is the last line of defense against 
extremists who mobilize to violence, it may be their own lives that 
they save because they have become the ultimate target.
                              path forward
    The problem we face is that social unrest is being effectively 
organized in the social-cyber domain, into potential insurgencies, on 
the basis of memes and short messages. This structure is both highly 
visible on the one hand and fundamentally invisible on the other 
because though it is ubiquitous, no single entity can contextualize the 
sheer scale of coded language and memes. Law enforcement certainly must 
not violate the Constitutional protections on citizens' free speech as 
it tries to distinguish imminent threats from jokes.
    America is at a crossroads, the intersection of Constitutional 
rights and legitimate law enforcement has never been more at risk by 
domestic actors as it is now as seditionists actively promote a 
revolution. However, I remain confident that America remains strong to 
its founding principles and recommend the following as possible paths 
forward.
    Social media companies were slow to act during the rise of ISIS 
message amplification and recruitment activities. These companies 
cannot be alone in combatting extremist ideologies and 
accelerationists, but they are part of the solution. And legislation is 
needed to ensure those companies work collaboratively with civic 
leaders across the spectrum for a civil society.
    Just as the internet is diffuse, the solution cannot reside in 
singular entity. With regard to extremist actions there needs to be 
better coordination among law enforcement intelligence capacities, 
supported by appropriate Department of Justice entities and a social 
media companies to rapidly respond to hate-driven seditious rhetoric 
where the content and context clearly demonstrates unlawful activity is 
about to occur, is occurring, or is being planned.
    The challenges to law enforcement and investigations associated 
with encrypted communication platforms--the ``going dark'' issues--must 
be addressed both technologically and legislatively.
    Just as we needed better air-traffic information after 9/11, what 
is needed is something fundamentally new, both technologically and 
socially. What is needed technologically is akin to a social media 
NORAD, a monitoring station that is technologically capable to generate 
finished intelligence rapidly and at a massive scale that can perceive 
imminent threats before they emerge, and detail them as the work at 
Rutgers and the Network Contagion Research Institute seeks to do with 
such tools.
    Powerful technology such as I'm suggesting, must have controls. 
Socially, we have come to a moment where there is a need for a public 
trust or neutral third party that can use such technology with 
credibility to report on threats to democracy and imminent threats to 
public safety. Such a trust must be one run in partnership with civil 
society, whose purpose to to further the American civic tradition.
    Rather than merely catching the criminal before the next attack, 
the best use of this public trust would be to fight for our norms at a 
massive scale. To intercede before radicalization with information 
civil society led counter-messaging and civic engagement. In other 
words, we aren't going to censor each other or our problems away on 
social platforms, and we aren't going to censor one another out of 
existence through violent insurrection either. We are going to have to 
use our words. The best use of the solution I propose here is using 
technology to do that, because that is what furthers and protects 
democratic traditions.
    These are fundamentally the traditions that now find themseleves 
under direct attack by the extreme left and extreme right alike. How we 
ultimately move forward together as a country, as Americans, depends 
how we negotiate this moment in history. Thank you.

    Mr. Rose. Thank you for your testimony.
    I now recognize Dr. Beirich to summarize her statement for 
5 minutes.

 STATEMENT OF HEIDI L. BEIRICH, CO-FOUNDER AND EXECUTIVE VICE 
      PRESIDENT, GLOBAL PROJECT AGAINST HATE AND EXTREMISM

    Ms. Beirich. Chairman Rose, Ranking Member Walker, and 
esteemed Members of the subcommittee, thank you very much for 
inviting me to testify today. It is a great honor.
    My name is Heidi Beirich. I am the co-founder of the newly-
established Global Project Against Hate and Extremism, and I 
have been researching hate groups and extremists for more than 
20 years.
    Today's hearing topic is of the utmost importance. We face, 
as we have already heard here, a global and increasingly 
violent extremist movement composed of an incendiary mix of 
White supremacists, neo-Nazis, and new groups like the 
``Boogaloo bois.'' All are interested in bringing about the 
collapse of democracies through terrorist violence. This is 
what accelerationism is.
    The accelerators, these extremists, are sharing their 
hateful ideologies, recruiting and growing and connecting 
internationally in a way that was never before possible. This 
growth can be laid primarily at the feet of the tech companies 
that refuse to adequately address the hate and extremist 
content that thrives on their platforms.
    The FBI now considers the risk of violence from White 
supremacist groups as, ``on the same footing of those of 
foreign terrorists like ISIS.'' DHS, the State Department, 
NCTC, government agencies abroad, and independent experts all 
agree: Far-right extremism, especially its accelerationist 
variant, is a metastasizing problem that this country and 
others will be dealing with for the long term.
    The tragedies in Pittsburgh, El Paso, and Christchurch, New 
Zealand, are testaments to the devastation terrorists inspired 
by these movements have wrought.
    Right now, the movements are taking advantage of the 
pandemic and racial-justice protests both to spread hate about 
those they wrongly blame for COVID-19 and to attack peaceful 
protesters and police officers. It is likely that the violence 
will intensify as we approach the November Presidential 
elections.
    Descriptions of groups and the movement overall and the 
threat they pose are laid out in detail in my written 
testimony, so I would like to take the opportunity here to 
offer some recommendations.
    Nothing is going to stop this movement's growth and violent 
activity if we don't accept that the on-line platforms are 
driving extremism. Much as Hitler used what was then the new 
technology of the radio to unleash his genocidal views into 
German families' homes, extremists today do the same with the 
web.
    Starting in 2015, the number of perpetrators of terrorist 
incidents who were exposed to violent extreme ideologies almost 
entirely on-line rather than in the real world began to rise 
substantially. That was all forms of extremism--right, left, 
Islamic. On-line platforms are where recruitment occurs, money 
is raised, plans are hatched. The strategy is sophisticated, 
drawing in recruits through slick videos, event planning, 
inside jokes, and so on.
    Yet there is a double standard in how on-line platforms 
treat content produced by White supremacists versus Islamic 
extremists. For the latter, de-platforming is the accepted 
strategy pushed by our Government, the Global Internet Forum to 
Counter Terrorism, and practiced by the tech companies. It 
would be inconceivable for social media platforms to allow ISIS 
propaganda to go unchecked or be monetized. But that is exactly 
what has happened with White supremacy.
    It wasn't until 2017, after the Charlottesville riots, that 
tech companies began to take hate seriously and ramp up 
enforcement. But it hasn't been enough. Facebook's civil rights 
audit, released last week, found it rife with anti-Muslim 
sentiment and hate groups using the platform.
    My new organization found dozens of YouTube videos that 
were posted by the international White nationalist network that 
inspired the Christchurch killer, and they were monetized, 
earning ad revenue both from businesses and, unbelievably, 
political campaign ads. Even after notifying YouTube, most of 
this is still up.
    If we are to stop the spread of accelerationism and 
violence, the social and on-line platforms must design adequate 
policies, and they must enforce them. GIFCT needs to treat 
White supremacy as it does Islamic extremism.
    The Raising the Bar Act proposed by Chairman Rose would 
help establish a baseline of data showing each platform's 
status in addressing extremist content. That could be used to 
push the platforms to do better. Model policies like those 
proposed by the civil rights coalition I co-founded, Change the 
Terms, could help if adopted.
    We also need to address extremism in the military. There 
are way too many actively serving troops and veterans in these 
movements. We can't be training people to kill and then 
unleashing them on the public.
    When it comes to law enforcement priorities, passage of the 
Domestic Terrorism Data Act, proposed by Chairman Thompson, 
would help us understand how officials are prioritizing 
combating these movements. Chairman Rose's Transnational White 
Supremacist Extremism Review Act would direct DHS to 
disseminate terrorist threat assessments of foreign violent 
extremist groups. That is a good step as well.
    I would suggest, though, that we be very careful in 
providing more legal authorities to law enforcement before 
understanding what the impact might be. Too often, when we have 
increased the powers of Federal law enforcement, they weren't 
used as promised but, rather, against marginalized populations 
to violate civil rights.
    Finally, sensible gun-control measures, like banning ghost 
guns, could be useful here.
    In closing, I would like to say thank you for taking these 
issues seriously and for having me here today.
    [The prepared statement of Ms. Beirich follows:]
                 Prepared Statement of Heidi L. Beirich
                             July 16, 2020
    Chairman Rose, Ranking Member Walker, and esteemed Members of the 
subcommittee, thank you for inviting me to testify. My name is Heidi 
Beirich. I hold a Ph.D. in political science from Purdue University and 
am the co-founder of the Global Project Against Hate and Extremism 
(GPAHE). For the 2 decades prior to founding my current organization 
this year, I served as the director of the Southern Poverty Law 
Center's Intelligence Project, where I monitored, issued reports about, 
and trained law enforcement officials on far-right extremist activity 
in the United States. An important area of that work involved providing 
information about the threats these movements pose to law enforcement 
and intelligence officials in terms of both domestic and global 
terrorism.
    I am an expert on White supremacist and other extremist movements 
in the United States and abroad, serving as an advisory board member of 
the International Network for Hate Studies, a co-founder and co-chair 
of the Change the Terms Coalition, which advances policy solutions to 
on-line extremism, and the author of numerous studies on extremism as 
well as co-editor of Neo-Confederacy: A Critical Introduction. My 
research has been cited in hundreds of academic pieces and news 
articles, including on the topic of accelerationist movements, and how 
they intertwine with other forms of extremism. I am honored to appear 
before you today.
                   far right terrorism is on the rise
    The subject of this hearing is critical. All evidence, by 
Government agencies in the United States and abroad, and by other 
experts, points to far-right extremism as a metastasizing problem that 
this country and many others will be dealing with for the long term. In 
June, the bipartisan Center for Strategic and International Studies 
(CSIS) analyzed a data set of terrorist attacks in the United States 
occurring between January 1994 and May 2020.\1\ CSIS concluded that 
``far-right terrorism has significantly outpaced terrorism from other 
types of perpetrators, including from far-left networks and individuals 
inspired by the Islamic State and al-Qaeda. Right-wing extremists 
perpetrated two-thirds of the attacks and plots in 2019 and over 90 
percent between January 1 and May 8, 2020.''\2\ Looking to the future, 
CSIS advises ``terrorism in the United States will likely increase over 
the next year'' in particular because of the November Presidential 
election.
---------------------------------------------------------------------------
    \1\ https://www.csis.org/analysis/escalating-terrorism-problem-
united-states.
    \2\ https://www.csis.org/analysis/escalating-terrorism-problem-
united-states.
---------------------------------------------------------------------------
    American law enforcement and intelligence agencies agree with CSIS. 
In August 2019, the National Counter Terrorism Center (NCTC) quietly 
added White supremacist violence to its mandate.\3\ In September 2019, 
the Department of Homeland Security (DHS) declared White supremacy as 
big a threat as ISIS or al-Qaeda.\4\ DHS warned that ``White 
supremacist violent extremists have adopted an increasingly 
transnational outlook'' driven by connecting with ``like-minded 
individuals on-line.''\5\ DHS specified the sharing of the ``ethnic 
replacement'' idea, which motivated the Tree of Life synagogue, the El 
Paso Walmart, and the Christchurch, New Zealand, shooters among others, 
as particularly problematic. It is the favorite propaganda of 
accelerationist terrorist movements.
---------------------------------------------------------------------------
    \3\ https://www.realcleardefense.com/2019/08/09/
nctc_now_going_after_domestic_ter- ror_309384.html.
    \4\ https://www.washingtonpost.com/national-security/domestic-
terror--particularly-white-supremacist-violence--as-big-a-threat-as-
isis-al-qaeda-dhs-says/2019/09/20/dff8aa4e-dbad-11e9-bfb1-
849887369476_story.html.
    \5\ https://www.dhs.gov/sites/default/files/publications/
19_0920_plcy_strategic-framework-countering-terrorism-targeted-
violence.pdf.
---------------------------------------------------------------------------
    In February 2020, the FBI announced that it now considered the risk 
of violence from these groups as ``on the same footing'' as threats 
posed to the country by foreign terrorist organizations such as ISIS. 
\6\ In June 2020, the U.S. State Department announced that White 
supremacist terrorism is ``a serious challenge for the global 
community.''\7\ In April, the State Department designated the Russian 
Imperial Movement (which offered training to American organizers of the 
Charlottesville, Va., riots) and members of its leadership as 
``Specially Designated Global Terrorists.''\8\ This is the first time 
in history that the State Department labeled a White supremacist 
terrorist group in this manner.
---------------------------------------------------------------------------
    \6\ https://www.cbsnews.com/news/racially-motivated-violent-
extremism-isis-national-threat-priority-fbi-director-christopher-wray/.
    \7\ https://www.state.gov/reports/country-reports-on-terrorism-
2019/.
    \8\ https://www.state.gov/united-states-designates-russian-
imperial-movement-and-leaders-as-global-terrorists/.
---------------------------------------------------------------------------
    Accelerationism has many variants and can be traced back to 
thinkers including Karl Marx, but when it comes to White supremacists 
and other far-right extremists, their accelerationist variant sees 
``modern society as irredeemable and believe it should be pushed to 
collapse so a fascist society built on ethnonationalism can take its 
place.''\9\ They specifically believe that violence is the only way to 
change politics, and they want to ``accelerate'' that change through 
violent actions to destabilize political systems with the goal of 
establishing White supremacist states. The fact that 
``accelerationism'' is spreading through White supremacist circles and 
other extremist movements such as the Boogaloo Bois, makes the topic of 
this hearing all the more important. As Cassie Miller of the SPLC has 
noted, ``Accelerationists aren't part of a new movement. They're just 
an iteration more inclined toward terroristic violence.''\10\
---------------------------------------------------------------------------
    \9\ https://www.splcenter.org/hatewatch/2020/06/23/there-no-
political-solution-acceleration- ism-white-power-movement.
    \10\ https://www.splcenter.org/hatewatch/2020/06/23/there-no-
political-solution-acceleration- ism-white-power-movement.
---------------------------------------------------------------------------
    The current pandemic and protests for racial justice have propelled 
this movement's growth. In recent months, accelerationists have spread 
disinformation and conspiracy theories tying the pandemic to Jews and 
immigrants, whom they allege are responsible for COVID-19. In May, the 
FBI's New York office warned that neo-Nazis and other racist extremists 
were encouraging their supporters who had contracted Covid-19 to infect 
cops and Jews.\11\ In early June, the UK's Commission for Countering 
Extremism warned that neo-Nazis and far-right activists were telling 
their followers to ``deliberately infect'' Jews and Muslims.\12\ As 
Soufan Center's Senior Fellow Colin P. Clarke recently argued, 
``Accelerationists believe that the social upheaval they promote, which 
is viewed as a necessary prelude that will usher in the rebuilding of 
society on the basis of White power, has been made plausible by the 
scenes of illness and death dominating mainstream news coverage.''\13\
---------------------------------------------------------------------------
    \11\ https://abcnews.go.com/US/white-supremacists-encouraging-
members-spread-coronavirus-cops-jews/story?id=69737522.
    \12\ https://www.cnn.com/2020/07/09/uk/extremism-deliberately-
covid-19-intl-scli-gbr/index.html.
    \13\ https://www.fpri.org/article/2020/04/the-growing-threat-posed-
by-accelerationism-and-accelerationist-groups-worldwide/.
---------------------------------------------------------------------------
                       the age of accelerationism
    Given the spread of accelerationism, we are now facing increasing 
terrorist threats inspired and motivated by a complex set of ideas. 
White supremacists are taking up weapons in an attempt to create 
conditions that will stop the process of demographic change in the 
Western world. Accelerationists, some of whom are also concerned by 
changing demographics, are investigating, and some preparing, terrorist 
violence for a coming race war. Heavily-armed militias were active in 
the anti-lockdown movement and attended the protests for racial justice 
after George Floyd was killed by Minneapolis police in May. They 
supposedly went to protect property, but there were reports of violent 
incidents including shootings.\14\ We face an incendiary mix of White 
supremacists, militia members, and new formations like the Boogaloo 
Bois, increasingly interested in bringing about the collapse of society 
through violence.
---------------------------------------------------------------------------
    \14\ https://www.modbee.com/opinion/editorials/
article243381126.html; https://www.indepen- dent.co.uk/news/world/
americas/us-protests-omak-ohio-militia-groups-george-floyd-blm-
a9573576.html.
---------------------------------------------------------------------------
    The true accelerant of these movements is the internet. It was 
nearly impossible for extremists in earlier eras to connect and recruit 
when their only tools were faxes and phones, and no one was monetizing 
or advertising their content. Much as Hitler used the new radio to push 
his views into German families' homes, thereby radicalizing an entire 
country into genocidal thinking, extremists who saw the potential of 
the internet in the 1990's have been able to successfully use 
mainstream on-line platforms in the same way. Given that the major 
platforms did not begin to enforce their anti-hate terms of service 
until after the Charlottesville, Va., riots in 2017, and still are 
muddling their responses to these issues today, there is no way to know 
how many millions were and still are radicalized on-line. But make no 
mistake, the dynamics that created today's growing accelerationist 
terrorist problem originate in cyber space.
                 mass attacks and the great replacement
    In the last 2 years, we have seen mass terrorist attacks driven by 
White supremacy in the United States and around the world. They have 
been inspired in particular by the ideas of the Great Replacement, 
which argues that White people are being genocided in their home 
countries and replaced by non-White immigrants. This is now the leading 
propaganda point for White supremacists world-wide.
    This concept is the bedrock idea propagated by the Identitarian 
movement, in particular Generation Identity (GI), a sprawling, 
multinational organization with chapters in at least 14 countries and 
allies in others, including the United States.\15\ For example, Richard 
Spencer allied with Identitarian thinking years ago. The reach of 
Identitarian thinking is wide, with attendant think tanks, institutes, 
housing complexes, newspapers, clothing labels, and individual 
supporters. As fears of the Great Replacement have spread across the 
Western world, so too has violence by lone actors motivated to stop the 
supposedly impending White genocide. Since October 2018, there have 
been at least 6 mass attacks motivated by Great Replacement ideas. 
Besides Christchurch, attacks were staged at 2 American synagogues, an 
El Paso Walmart, a synagogue in Halle, Germany, and 2 shisha bars in 
Hanau, Germany, where the shooter is believed to have been targeting 
Muslim immigrants.
---------------------------------------------------------------------------
    \15\ https://www.globalextremism.org/post/international-white-
nationalist-movement-spreading-on-twitter-and-youtube.
---------------------------------------------------------------------------
    The White supremacist killers in these attacks did not pick up 
their ideas of White genocide and the Great Replacement randomly. The 
Identitarian movement uses its massive on-line presence to spread its 
abhorrent anti-Muslim and anti-immigrant messaging, and to warn of a 
coming civil war while assiduously recruiting young people into its 
ranks and ideology. Identitarians' real-world publicity stunts 
targeting Muslims and immigrants provide fuel for its on-line audience 
in the form of viral images, videos, music, and press coverage, all of 
which help draw more young people into its ranks.
    It is particularly disturbing that a movement whose ideas are 
linked directly to terrorism and the building of an international White 
supremacist network conducts its on-line organizing in plain sight, on 
YouTube and others, and until mid-July on Twitter, when the accounts 
were taken down after GPAHE released a report on the dangers of this 
movement. These mainstream accounts are then used to drive traffic to 
darker corners of the internet, where messaging is even more explicit 
and offers no pretense of acceptance of Muslims, refugees, and 
immigrants.
                      violent neo-nazi formations
    Accelerationism gained attention with the rise of 2 neo-Nazi 
organizations, Atomwaffen Division (AWD), German for atomic weapons, 
and The Base, whose name is the English translation for al-Qaeda. 
Founded in 2015, AWD initially organized on the neo-fascist Iron March 
forum. A violent neo-Nazi network that celebrates Hitler and Charles 
Manson, AWD has been key to promoting the accelerationist ideas. AWD 
videos portray young men, wearing camouflage and scarves over their 
faces, firing rifles during military-style training. One video begins 
with group members shouting in unison, ``Race War Now.''
    AWD members were responsible for multiple murders by 2017. These 
included a gay student in California, a couple in Virginia, and the 
murder of a member's 2 roommates in a Tampa apartment.\16\ Besides the 
U.S. murders, AWD members planned terrorist attacks, created a hit 
list, and sent death threats to German politicians it targeted for 
assassination. AWD was international, with chapters in England, Canada, 
Germany, and the Baltic States.\17\
---------------------------------------------------------------------------
    \16\ https://www.npr.org/2018/03/06/590292705/5-killings-3-states-
and-1-common-neo-nazi-link.
    \17\ https://1897edad-2ee4-4b59-a583-57ac06e2e6c7.usrfiles.com/ugd/
1897ed_280aa90146- b040a1ba4416820519084f.pdf.
---------------------------------------------------------------------------
    As has been the case for many of these new movements, arrests of 
AWD members revealed many had a military background or were in active 
service. In 2018, Marine Lance Corporal Vasillios G. Pistolis, was 
expelled from the Marine Corps for his ties to AWD and for 
participating in violent assaults during the Charlottesville riots in 
2017. Pistolis later bragged about his involvement on-line with other 
members of AWD.
    Pistolis' expulsion was widely reported, but the details of the 
arrest of the leader of the group, Brandon Russell, are much less well-
known, and paint a troubling picture of how the military handles White 
supremacists in its ranks. In 2017, Russell, who was serving in the 
Florida Army National Guard, was arrested after one of his roommates, 
Devon Arthurs, killed 2 of his other roommates in a Tampa 
apartment.\18\ Investigators on the scene discovered a cache of 
weapons, detonators, volatile chemical compounds, including a cooler 
full of HMTD, a powerful explosive often used by bomb makers, and 
ammonium nitrate, the substance used by Timothy McVeigh in the Oklahoma 
City attack, and 2 radioactive isotopes, americium and thorium.
---------------------------------------------------------------------------
    \18\ https://www.propublica.org/article/an-atomwaffen-member-
sketched-a-map-to-take-the-neo-nazis-down-what-path-officials-took-is-
a-mystery.
---------------------------------------------------------------------------
    While Arthurs was arrested for homicide, police released Russell, 
who claimed that he used the explosives to power model rockets. Within 
hours, Russell acquired an AR-15-style assault rifle and a bolt-action 
hunting rifle. He loaded home-made body armor and more than 1,000 
rounds of ammunition into his car and headed to the Florida Keys with 
another AWD member. Sheriff's deputies in Monroe County ultimately 
arrested him.
    In 2018, The Base, largely patterned off of AWD, was founded. That 
December, Rinaldo Nazzaro, the group's leader who is now presumed to be 
living in Russia,\19\ purchased 30 acres of remote land in Republic, 
Wash. His intent was to create a training compound for his recruits to 
prepare for a coming race war. The Base believe that, in the coming 
chaos, the Federal Government will grant them the power to construct an 
all-White homeland in the Northwest (long a dream of White supremacists 
often referred to as the Northwest Territorial Imperative). The Base 
planned to accelerate a full system collapse through acts of terrorism. 
In January 2020, the FBI arrested 3 men from the group. Importantly, 1 
of the men arrested was in possession of a ghost gun, a weapon self-
built from parts not purchased from a manufacturer.\20\
---------------------------------------------------------------------------
    \19\ https://www.theguardian.com/world/2020/jan/23/revealed-the-
true-identity-of-the-leader-of-americas-neo-nazi-terror-group.
    \20\ https://everytown.org/press/ghost-guns-a-weapon-of-choice-for-
white-supremacists-arrested-ahead-of-virginia-rally/.
---------------------------------------------------------------------------
    As with AWD, 2 of the men had previous military training: Brian 
Mark Lemley was an Army cavalry scout, and Patrik Jordan Mathews had 
been a combat engineer in the Canadian Army Reserve, indicating that 
the reach of these groups is a problem for foreign military services as 
well our own. According to court documents, these men discussed 
``recruitment, creating a White ethno-State, committing acts of 
violence against minority communities (including African-Americans and 
Jewish-Americans), the organization's military-style training camps, 
and ways to make improvised explosive devices.''\21\ Other members of 
the group were arrested for a plot to murder an anti-racist activist 
couple in north Georgia, and another was charged with vandalizing a 
synagogue in Racine, Wisc.\22\
---------------------------------------------------------------------------
    \21\ https://apps.npr.org/documents/document.html?id=6658688-The-
Base-Lemley-Mathews-Bilbrough-Arrests.
    \22\ https://www.jsonline.com/story/news/crime/2020/01/17/alleged-
member-neo-nazi-group-charged-racine-synagogue-vandalism/4505324002/.
---------------------------------------------------------------------------
                             boogaloo bois
    With the global pandemic and the May racial justice protests, a new 
wave of attacks has targeted protestors and law enforcement. Many are 
connected to the Boogaloo Bois, a loosely-organized American far-right 
extremist movement. The movement first gained public attention when 
heavily-armed members in their signature Hawaiian shirts and leis were 
seen at anti-lockdown protests in April.\23\ This movement is preparing 
for, or seeks to incite, a second American civil war, likely sparked by 
a Government confiscation of firearms. The movement is complex and 
includes pro-gun groups, militias, and racists, all with varying views 
on race.
---------------------------------------------------------------------------
    \23\ https://www.vice.com/en_us/article/y3zmj5/the-boogaloo-bois-
are-bringing-their-ar-15s-and-civil-war-ideology-to-the-lockdown-
protests.
---------------------------------------------------------------------------
    The term Boogaloo emerged from the unregulated 4chan board in 2012, 
but did not come to wide-spread attention until late 2019.\24\ The term 
itself is a reference to ``Breakin' 2: Electric Boogaloo,'' a 1984 
movie about breakdancing that extremists, from gun rights to militia 
movements to White supremacists, began using to refer to an impending 
civil war, the coming ``Boogaloo.''\25\ The word is intentionally 
ridiculous, used ironically to spread on-line memes, many of which 
include violent text and images.
---------------------------------------------------------------------------
    \24\ https://www.nbcnews.com/tech/social-media/what-boogaloo-how-
online-calls-violent-uprising-are-getting-organized-n1138461.
    \25\ https://www.nbcnews.com/tech/social-media/what-boogaloo-how-
online-calls-violent-uprising-are-getting-organized-n1138461.
---------------------------------------------------------------------------
    On May 30, 3 men who identified as Boogaloo adherents were arrested 
on terrorism charges in Las Vegas.\26\ They had been plotting since 
April to bomb an electrical substation but then shifted their focus to 
the racial justice protests. Air Force sergeant Steven Carrillo and 
Robert Justus were charged with the June 6, 2020 murder of a Santa Cruz 
County deputy and the May 29, 2020 murder of a Federal Protective 
Service officer in Oakland, Calif. Carrillo wrote ``Boog'' and the 
phrases ``I became unreasonable,'' a Boogaloo meme, in his own blood on 
the hood of a vehicle. The van allegedly used in the murders contained 
a patch with a Boogaloo symbol and a ballistic vest bearing the 
Boogaloo symbol of an American flag with an igloo instead of stars.\27\ 
Carrillo was using an AR-15 ghost gun.\28\ Carrillo was an active-duty 
member of an elite Air Force unit tasked with guarding American 
military personnel at unsecure foreign airfields.\29\ His security 
clearance required the monitoring of all of his social media per a 2016 
directive. Clearly the rule was not being enforced.\30\
---------------------------------------------------------------------------
    \26\ https://www.rollingstone.com/culture/culture-news/boogaloo-
boys-george-floyd-protests-black-lives-matter-1010117/.
    \27\ https://www.mercurynews.com/2020/06/16/santa-cruz-deputys-
alleged-killer-charged-with-assassinating-Federal-cop-in-oakland-
ambush/.
    \28\ https://sanfrancisco.cbslocal.com/2020/06/16/steven-carrillo-
david-underwood-murder-santa-cruz-deputy-fatal-shooting-fatal-oakland-
federal-building-shooting/.
    \29\ https://apnews.com/9186215f571341b8e344a17402fa73e9.
    \30\ https://www.dni.gov/files/NCSC/documents/Regulations/
SEAD_5.pdf.
---------------------------------------------------------------------------
    According to authorities, the 2 men used recent demonstrations 
against racial injustice as a cover to attack law enforcement. The FBI 
agent in charge of the investigation said that the alleged perpetrators 
did not appear to intend to join the protests but ``came to Oakland to 
kill cops.''\31\ The internet connected these men. Carillo and Justus 
met on Facebook, and just 2 days later, they perpetrated their first 
attack.\32\
---------------------------------------------------------------------------
    \31\ https://apnews.com/9186215f571341b8e344a17402fa73e9.
    \32\ https://sanfrancisco.cbslocal.com/2020/06/17/steven-carrillo-
david-underwood-boogaloo-facebook-posts-santa-cruz-shooting-damon-
gutzwiller/.
---------------------------------------------------------------------------
                     the internet drives terrorism
    At this point, it is well-accepted that White supremacy is as 
significant a threat for generating mass casualty terrorist acts 
domestically and internationally as other forms of extremism. Though 
good data does not exist on what inspires hate crimes perpetrators, it 
would be inconceivable that on-line hate propaganda didn't play a role. 
The answer to slowing its spread and reducing its influence lies 
largely in containing the proliferation of these ideas on-line. For law 
enforcement, knowledge of the on-line ecosystem and the often bizarre 
language and memes, is key to infiltrating accelerationist networks as 
they work to stop future attacks.
    All of the movements thrive on-line. That is where recruitment 
occurs, money is raised, and plans hatched. They have sophisticated 
strategies to draw in recruits, and they make their posts as appealing 
as possible through inside jokes, memes, slick videos, and references 
that only those on the inside understand. The groups are intentional 
about this work. In a manual produced by Generation Identity, which 
pushes the Great Replacement narrative, called ``The Art of Red-
Pilling,'' step-by-step instructions for radicalizing potential 
recruits are provided. ``You sow the soft red pill seeds and then you 
water them constantly. An honest question to start with, a news piece 
here, an email there, and in the evening, an anecdote over beer,'' 
reads the manual.\33\ It recommends taking advantage first of 
grievances over free speech, political correctness, or gender equality, 
slowly drawing in young recruits before radicalizing them with racist 
ideas and driving them to darker, unregulated parts of the internet 
such as Telegram.
---------------------------------------------------------------------------
    \33\ https://www.politico.eu/article/who-are-europe-far-right-
identitarians-austria-generation-identity-martin-sellner/.
---------------------------------------------------------------------------
    A July study by Type Investigations of recent domestic terrorist 
events found ``that incidents involving people who were exposed to 
violent extremist ideologies almost entirely on-line--rather than 
through contact in real-world settings--rose substantially starting in 
2015, amounting to nearly one in five incidents [since then] . . . 
nearly every case we catalogued in recent years involved some degree of 
on-line radicalization.''\34\ This conclusion applied to all forms of 
extremism--right-wing, left-wing and Islamist.
---------------------------------------------------------------------------
    \34\ https://www.typeinvestigations.org/investigation/2020/07/09/
domestic-terror-in-the-age-of-trump/.
---------------------------------------------------------------------------
    Yet, there is a double standard when it comes to how on-line 
platforms treat content produced by White supremacists compared to 
content by Islamic extremist groups like ISIS or al-Qaeda. For the 
latter, deplatforming is the accepted, and actually, demanded strategy, 
one pushed by the American government, the Global Internet Forum to 
Counter Terrorism (GIFCT), and the major technology platforms.
    Not so for White supremacist groups. Enforcement of restrictions 
and bans on these groups and their acolytes is much more haphazard, 
despite their proliferation of propaganda such as accelerationism or 
the Great Replacement, which similarly inspires terrorism. Until a 
deplatforming that came in the wake of GPAHE's report on Generation 
Identity released in early July, the group had dozens of chapter 
Twitter accounts. As of today, it continues to have monetized videos 
running on YouTube. Some of the ads are for political campaigns (not at 
the behest of the campaigns).
    It would be inconceivable for social media platforms to allow ISIS 
propaganda to spread and grow unchecked, or to be monetized. Beginning 
around 2015, Twitter implemented a mass suspension of ISIS and similar 
accounts.\35\ In 2016, major tech companies launched a shared database 
of ``hashes,'' or digital ``fingerprints,'' of extremist imagery so as 
to be able to identify and curb the spread of terrorist content on-
line.\36\ This work would ultimately become the joint tech company 
effort, GIFCT, which now has dozens of companies using its work to 
identify Islamic extremist material.
---------------------------------------------------------------------------
    \35\ https://www.nytimes.com/2016/02/06/technology/twitter-account-
suspensions-terror- ism.html.
    \36\ https://www.scientificamerican.com/article/social-medias-
stepped-up-crackdown-on-terrorists-still-falls-short/.
---------------------------------------------------------------------------
    By 2018, Twitter had removed some 1 million Islamic extremist 
accounts.\37\ YouTube took similar actions, and in 2017 began 
redirecting users searching for this material to Islamic clerics 
denouncing the group.\38\ And it worked. A study by J.M. Berger and 
Jonathan Morgan, ``The ISIS Twitter Census,'' found that the 
deplatforming of ISIS accounts was successful. ``The data we collected 
also suggests that the current rate of suspensions has also limited the 
ISIS network's ability to grow and spread, a consideration almost 
universally ignored by critics of suspension tactics. The consequences 
of neglecting to weed a garden are obvious, even though weeds will 
always return.''\39\ Graphic on-line images of beheadings and other 
violence were also greatly reduced, the study found.
---------------------------------------------------------------------------
    \37\ https://fortune.com/2018/04/05/twitter-terrorist-account-
suspensions/.
    \38\ https://techcrunch.com/2017/07/20/google-jigsaw-redirect-
method-launch-youtube-isis/.
    \39\ https://www.brookings.edu/wp-content/uploads/2016/06/
isis_twitter_census_berger- _morgan.pdf.
---------------------------------------------------------------------------
    This mass purge did not encounter a political backlash or calls 
that the takedowns violated free speech principles. The American 
government supported the deplatforming. Significantly, the same kind of 
success, particularly in terms of reducing the number of recruits into 
other kinds of movements such as White supremacy, comes with their 
deplatforming.\40\ In September 2019, it was announced that GIFCT would 
become a stand-alone nonprofit institution that will counter all forms 
of extremist content regardless of its ideological underpinnings. It 
remains to be seen if GIFCT will take on White supremacy.
---------------------------------------------------------------------------
    \40\ https://twitter.com/MeganSquire0/status/1281621941296738307.
---------------------------------------------------------------------------
    As to the other mainstream platforms, the question now is, with the 
United States and other foreign government agencies arguing that White 
supremacist and Boogaloo propaganda is inspiring terrorist violence, 
and with the rise of world-wide White supremacy as a terror-inducing 
ideology, will these social media platforms treat this and similar 
material as they have ISIS propaganda? Or will White supremacist groups 
continue to get a pass for inspiring terrorism on-line even though 
their propaganda does so in the same way ISIS propaganda does?
         recommendations for combating new and emerging threats
On-line Hate
    There needs to be a shift in the mentality of most mainstream 
platforms about the dangers related to White supremacy and 
accelerationist movements. As someone who has worked for nearly a 
decade to convince the major technology companies of their role in 
fomenting White supremacy and its violence, I know how absolutely 
reluctant these companies are to address these issues. It wasn't until 
the Charlottesville riots that change came to Silicon Valley. Though 
better than a couple of years ago, enforcement is still erratic and 
piecemeal. Too often it takes anti-hate and civil rights activists to 
find problematic material and push for its removal. It is indefensible 
that these nonprofits and activists are spending precious resources 
running down on-line hate for multi-billion dollar corporations.
    As a coalition member and co-founder of Change the Terms (CTT), I 
would advocate that all internet companies study and adopt CTT's model 
policies.\41\ Enforcement of companies' terms of service and other 
actions are uneven, and they are often recalcitrant, so major education 
on the part of anti-racist groups and civil society are required. For 
example, Facebook did deplatform Boogaloo Bois content, but only after 
violence perpetrated by its acolytes and major education efforts by 
civil society.\42\ And they deplatformed Generation Identity content, 
but only after the Christchurch killer live-streamed his murders on 
their system. They have also removed hundreds of White supremacist 
groups from their platform, but many can still use event-planning pages 
and other aspects of the platform to either finance or push their 
noxious ideas.
---------------------------------------------------------------------------
    \41\ https://www.changetheterms.org.
    \42\ https://www.bbc.com/news/world-us-canada-53244339.
---------------------------------------------------------------------------
    Facebook's recent civil rights audit concluded, ``Facebook's 
approach to civil rights remains too reactive and piecemeal.''\43\ It 
found the platform to be rife with anti-Muslim sentiment. And this 
after the Christchurch attacks, and after Facebook was used by the 
Myanmar government to ethnically cleanse the Rohingya population.\44\ 
These events would suggest that Facebook would take anti-Muslim 
activity very seriously, but there is still too much work to be done on 
anti-Muslim and other bigotry. The audit also found that the company's 
algorithms continue to push people toward self-reinforcing echo 
chambers that deepen polarization and further radicalization.
---------------------------------------------------------------------------
    \43\ https://about.fb.com/wp-content/uploads/2020/07/Civil-Rights-
Audit-Final-Report.pdf.
    \44\ https://www.nytimes.com/2018/11/06/technology/myanmar-
facebook.html.
---------------------------------------------------------------------------
    Many of the audit findings could easily apply to other tech 
companies. Despite claiming in 2019 to disallow White supremacists, it 
took until late June 2020 for YouTube to ban major hate figures such as 
David Duke. A report by GPAHE showed in mid-June that Presidential 
campaign ads were running on White supremacist videos as well as other 
types of advertising, in effect monetizing White supremacy. YouTube's 
response was that this was just a ``glitch''\45\ that had been fixed, 
but the ads continue to run this week.
---------------------------------------------------------------------------
    \45\ https://www.politico.com/news/2020/07/07/youtube-trump-biden-
campaign-ads-russia-white-supremacist-350650.
---------------------------------------------------------------------------
    In other cases, certain platforms have done quite a lot to rid 
their systems of these accounts. For example, PayPal in 2017 began to 
deplatform White supremacist materials, but accounts do continue to 
slip through their systems. GPAHE warned them of 2 major accounts just 
last week and they took action against 1.
    This is a complex issue and the solutions will vary based on the 
type of platform under consideration. The legislation proposed by 
Chairman Rose, the Raising the Bar Act, could help establish a baseline 
of where each platform is in terms of dealing with this content and 
then hold the platforms accountable for doing better.\46\ GPAHE is a 
partner to the International Coalition Against Cyber Hate (INACH), 
which works with the European Commission (EC) to monitor hate on-line 
and whose members conduct the monitoring exercises that the EC uses to 
determine how well each company is doing. This data has been invaluable 
in Europe for holding the major platforms accountable and has led to 
improved efforts to combat hate on-line. Not surprisingly, the 
technology companies seem to improve the enforcement of their terms of 
service after each round of monitoring. Chairman Rose's proposed 
legislation would do the same here in the United States.
---------------------------------------------------------------------------
    \46\ https://maxrose.house.gov/news/
documentsingle.aspx?DocumentID=2403.
---------------------------------------------------------------------------
    In mid-June, the Global Project Against Hate and Extremism put 
forth a set of recommendations for White supremacist content on 
mainstream platforms. It includes that: Dangerous and terrorist-
connected propaganda and groups must be deplatformed; policies against 
hate speech and posting by violent extremist groups need to be clearly 
defined to include White supremacist propaganda and groups; these 
policies must be rigorously enforced; deplatforming organized White 
supremacist groups must be prioritized, and White supremacy must be 
recognized as a driver of terrorism at the same level as Islamic 
extremism by GIFCT and the major technology companies; algorithms and 
search systems should never recommend White supremacist content; both 
AI systems and content reviewers must be trained to prioritize White 
supremacist material for removal; identifying White supremacist and 
other hate content should not be outsourced to civil society and anti-
racist activists; and there should be no monetization of White 
supremacist material through ads, and payment processors should not 
allow their products to be used by extremists.
                           military extremism
    There is no stemming the tide of these movements without getting a 
handle on extremism in the military. A thorough hearing was held on 
this topic this past February by the House's Armed Services Military 
Personnel Subcommittee.\47\ I testified alongside other experts at the 
hearing and provided written testimony on the extent of this problem in 
the United States.\48\ There have been dozens of terrorist and 
attempted terrorist acts committed by serving and former members of the 
Armed Forces. These have included acts of violence by adherents of the 
movements discussed here. And of course the largest domestic terrorist 
attack in the United States before 9/11, Timothy McVeigh's bombing of 
an Oklahoma City Federal building, was committed by a veteran who had 
both White supremacist and militia ties.
---------------------------------------------------------------------------
    \47\ https://www.c-span.org/video/?469238-1/white-supremacy-
military.
    \48\ https://1897edad-2ee4-4b59-a583-57ac06e2e6c7.usrfiles.com/ugd/
1897ed_280aa90146b0- 40a1ba4416820519084f.pdf.
---------------------------------------------------------------------------
    Active military personnel are well aware of this problem and 
polling by the Military Times in 2017,\49\ 2018,\50\ and 2019,\51\ 
indicates that White nationalist views appeared wide-spread. In the 
2019 poll released on February 6, 2020, the publication reported that 
more than one-third of all active-duty troops and more than half of 
minority service members say they have personally witnessed examples of 
``White nationalism or ideologically-driven racism within the ranks.''
---------------------------------------------------------------------------
    \49\ https://www.militarytimes.com/news/pentagon-congress/2017/10/
23/military-times-poll-one-in-four-troops-sees-white-nationalism-in-
the-ranks/.
    \50\ https://www.militarytimes.com/news/pentagon-congress/2019/02/
28/white-nationalism-remains-a-problem-for-the-military-poll-shows/.
    \51\ https://www.militarytimes.com/news/pentagon-congress/2020/02/
06/signs-of-white-supremacy-extremism-up-again-in-poll-of-active-duty-
troops/.
---------------------------------------------------------------------------
    Congresswoman Jackie Spier has recently advanced legislation as 
part of the 2021 National Defense Authorization Act that would 
significantly help with this issue.\52\ My testimony last February also 
included extensive recommendations to address the problem. I would like 
to highlight one particular problem here. There is currently no ban on 
members of anti-Government groups serving in the armed forces in the 
same way that White supremacists are, at least theoretically, banned 
(though enforcement is lacking and highly uneven). Given that militias 
have picked up on accelerationist ideas and are mixing with other 
dangerous movements such as the Boogaloo Bois, legislative intervention 
is in order.
---------------------------------------------------------------------------
    \52\ https://speier.house.gov/2020/7/ndaa-markup-includes-chair-
speier-s-provisions-to-address-military-racial-and-ethnic-disparities-
and-promote-inclusion.
---------------------------------------------------------------------------
                       law enforcement priorities
    In just the last year, every Federal law enforcement agency is on 
record saying that White supremacy is the most significant threat the 
country faces in terms of domestic terrorism. That includes the 
National Counter Terrorism Center (NCTC), the Department of Homeland 
Security (DHS), the FBI and the State Department. This is a huge 
advance given that for years, the Federal Government under both 
Democratic and Republican administrations, refused to admit that this 
threat was exploding.\53\
---------------------------------------------------------------------------
    \53\ https://www.splcenter.org/sites/default/files/
cohen.homeland_security-final.pdf.
---------------------------------------------------------------------------
    And this growing problem is not just happening in the United 
States. Governments in Germany,\54\ the United Kingdom,\55\ 
Australia,\56\ and many other countries have come to the same 
conclusion. In April, the Counter Terrorism Committee Executive 
Directorate (CTED) of the U.N. Security Council published, ``Member 
States Concerned by the Growing and Increasingly Transnational Threat 
of Extreme Right-Wing Terrorism.''\57\ CTED reported that 10 of its 
states have this concern and ``although extreme right-wing terrorism is 
not a new phenomenon, there has been a recent increase in its frequency 
and lethality, with some individuals, groups, and movements pursuing 
transnational aims in a national context, drawing on international 
networks, ideas, and personalities, and seeking to mobilize others, 
often using the internet. This has led to multiple large-scale 
terrorist attacks targeting minorities.''
---------------------------------------------------------------------------
    \54\ https://www.voanews.com/europe/germany-sees-right-wing-
extremism-top-security-threat.
    \55\ https://www.bbc.com/news/uk-49088293.
    \56\ https://www.thesaturdaypaper.com.au/news/law-crime/2020/03/21/
right-wing-terrorism-the-rise-australia/15847092009572.
    \57\ https://www.un.org/sc/ctc/wp-content/uploads/2020/04/
CTED_Trends_Alert_Ex- treme_Right-Wing_Terrorism.pdf.
---------------------------------------------------------------------------
    So what are the solutions to this problem in the law enforcement 
realm? There are some pieces of legislation already proposed that make 
sense in this realm. Chairman Rose's Transnational White Supremacist 
Extremism Review Act, which would direct DHS to develop and disseminate 
a terrorist threat assessment of foreign violent White supremacist 
extremist groups, makes sense.\58\ A significant problem in tracking 
these movements is a lack of useful data, which is the direct result of 
the lack of interest in these issues that has existed for so long in 
the Federal Government. Additionally, the bill proposed by House 
Committee on Homeland Security Chairman Bennie Thompson, the Domestic 
Terrorism Documentation and Analysis of Threats in America Act, and 
which has been referred to the Senate, also makes sense.\59\ The bill 
would in part require the FBI, DOJ, and DHS to produce an annual, 
unclassified joint report about this issue, providing a set of much-
needed data.\60\
---------------------------------------------------------------------------
    \58\ https://maxrose.house.gov/news/
documentsingle.aspx?DocumentID=2480.
    \59\ https://www.Congress.gov/bill/116th-congress/house-bill/3106.
    \60\ https://homeland.house.gov/news/legislation/chairman-thompson-
committee-democrats-introduce-legislation-to-bolster-domestic-
terrorism-data-transparency-and-research.
---------------------------------------------------------------------------
    I do have deep concerns about the process that could be used to 
designate White supremacist groups as ``foreign terrorist 
organizations'' or any proposed legislation that would increase the 
powers of law enforcement agencies in terms of domestic terrorism. The 
most important concern is this country's terrible history when it comes 
to increasing law enforcement powers that then end up being used 
against marginalized communities. Faiza Patel of the Brennan Center has 
said, ``Throughout its history, the FBI has used its authorities to 
investigate and monitor political protesters and civil rights 
activists. Since 9/11, the FBI has used its counterterrorism 
authorities to target Muslims, Arabs, and people from the Middle East 
and Asia, as well as people who dissent from the status quo. In 2005, 
the FBI named `eco-terrorism,' which hasn't produced a single fatality 
in this country, the No. 1 domestic terrorism threat. In August 2017, 
the FBI concocted a `black identity extremist movement'\61\ out of a 
handful of unrelated acts of violence and warned law enforcement 
agencies across the country that black activists protesting police 
violence posed a threat to them.''\62\
---------------------------------------------------------------------------
    \61\ https://foreignpolicy.com/2017/10/06/the-fbi-has-identified-a-
new-domestic-terrorist-threat-and-its-black-identity-extremists/.
    \62\ https://www.brennancenter.org/our-work/research-reports/new-
domestic-terrorism-laws-are-unnecessary-fighting-white-nationalists.
---------------------------------------------------------------------------
    Additionally, I think it could be argued that Federal law 
enforcement already has substantial legal authorities to pursue the 
terrorism under discussion today, if they would only apply those 
powers. A domestic terrorism statute is not necessary. As former FBI 
agent Mike German has repeatedly pointed out, there are already ``57 
different Federal criminal statutes that the [Federal criminal] code 
calls `Federal crimes of terrorism.' Fifty-one of them apply to cases 
the Federal Government designates `domestic terrorism.' ''\63\ These 
already broad authorities make it questionable that more are needed.
---------------------------------------------------------------------------
    \63\ https://www.justsecurity.org/61876/laws-needed-domestic-
terrorism/.
---------------------------------------------------------------------------
    The issue appears not to be a lack of legal authorities but rather 
an unwillingness by law enforcement to use its authorities against 
right-wing extremism in the same way it does with other forms of 
extremism. A recent study by Type Investigations of multiple domestic 
terrorist attacks came to this conclusion about priorities when it 
comes to interrupting plots: ``[L]aw enforcement priorities remain 
skewed. The database shows that during the first 3 years, 2017-2019, 
cases involving Islamist extremists were preempted 18 times, compared 
with 7 completed attacks, or 72 percent . . . In contrast, a minority 
of right-wing extremist cases were preempted--18, compared with 30 
realized attacks, or 37.5 percent.''\64\ The study further finds law 
enforcement still doesn't see White supremacy and anti-Government 
extremism as the serious threat it is.
---------------------------------------------------------------------------
    \64\ https://www.typeinvestigations.org/investigation/2020/07/09/
domestic-terror-in-the-age-of-trump/.
---------------------------------------------------------------------------
    I would recommend extensive study of the potential unintended 
consequences to marginalized communities and civil and human rights 
violations before further employing that FTO label for White supremacy 
and before enhancing the powers of Federal law enforcement with a new 
domestic terrorism statute. We cannot solve the White supremacist 
terrorism problem by violating citizen's rights.
    Finally, sensible gun control measures would help keep guns out of 
extremists' hands.

    Mr. Rose. I thank all the witnesses for their extraordinary 
testimony.
    I will remind the subcommittee Members that they each have 
5 minutes to question the panel.
    I now recognize myself for questions.
    So I want to try to move away all the noise and get a sense 
from you, where do you measure this threat against jihadist 
fundamentalism right now? What is the worst-case scenario? 
Where do you see this potentially going if we do not act?
    Mr. Donahue, let's start with you.
    Mr. Donohue. So, clearly, from my testimony, I raised the 
comparisons between violent jihadi recruitment and the 
techniques that were used to motivate people to violence. That 
is certainly true here. What we have seen is the motivation to 
violence can happen in any moment.
    The concern that we have is that that violence and 
triggering the events that have happened across the United 
States and, as Heidi had mentioned before, even in Christchurch 
go to show that the power of what is happening on-line and the 
power of the messages are so virulent that they make sense to 
certain people.
    That is where we need to have the ability to have 
visibility into those networks and the people who are motivated 
to violence.
    Mr. Rose. Dr. Beirich.
    Ms. Beirich. My biggest concerns are essentially two-fold: 
No. 1, what J.J. described, which is this kind-of incendiary 
situation that you find at the recent protests, where she 
rightly said people are heavily armed, easily triggered. We 
have already seen police officers shot dead and plots against 
protesters, as happened in Las Vegas.
    But mass-casualty attacks, like we saw in El Paso and 
Pittsburgh and Poway--and the list could go on, and this is an 
international problem--is what I am most concerned about.
    The White supremacists who have come to believe that they 
need to use terrorism, violence to bring down systems of 
Government--multicultural democracies, basically--to stop a 
White genocide, that has motivated most of the big mass-
casualty attacks. That motivation is not going to go away, 
because demographics are shifting in much of the Western world, 
and that is what they view as a threat.
    If we don't intercept how this propaganda is spread on 
mainstream platforms, where it allows for recruiting, I am just 
afraid that the next Christchurch could be around the corner 
anywhere, here or abroad.
    Mr. Rose. Thank you.
    Ms. MacNab.
    Ms. MacNab. I think we are facing an uphill battle here. 
You have social media platforms where people can basically push 
propaganda, they recruit, they are actively recruiting younger 
male members. But then, from that point on, they move into 
private groups. Then, from there, they move into places like 
Discord. From there, they cherry-pick who they think are 
serious actors and they move into someplace like Signal.
    Trying to police this I think would be impossible. If you 
got rid of, you know, the bigger groups, the bigger propaganda 
things on Facebook, you would put a dent in it.
    I don't think there is a large risk of these groups ever 
coming together and forming a private army, but I am very 
concerned with small-cell terrorism. I think, as I put in my 
earlier testimony, that protesters are at risk, police officers 
are at risk, and possibly infrastructure. I know that, in Las 
Vegas, one of their plots was to take down the grid, the power 
grid, during a protest so that they could then fire on 
protesters, bomb protesters, and the chaos would be horrible 
because it would be pitch-dark.
    So I think mass casualty is an issue. I don't think it is 
going to be large-scale. I don't think it will be coordinated 
too much into cities. But I think the possibility for someone 
to have learned, for example, from the Las Vegas shooter, 
getting up high and shooting down into a crowd, is a very big 
concern.
    Mr. Rose. Thank you.
    Mr. Walker, you are up, my friend.
    Mr. Walker. Thank you, sir.
    I want to start with Mr. Donahue, if I could, please.
    With over 3 decades of NYPD experience, you are uniquely 
qualified to talk about why law enforcement is a common target 
of violent extremist groups.
    Can you add to the testimony you have already provided 
about why this is the case, the impact it has on law 
enforcement, and how the current environment is impacting law 
enforcement and their families?
    Mr. Donohue. Thank you very much, Ranking Member Walker.
    So, in addition to what I had said in my prepared remarks 
and in my testimony, the effect and impact on law enforcement, 
obviously, is great. What we have seen are the attacks 
directly--to be sensational, to indicate--the true intention is 
to attack the most visible arm of Government, which is police. 
That impact on law enforcement, over the last month-and-a-half 
or so, has been dramatic.
    There is always a concern both from a tiring out, from a--
how can they continue to respond to repeated negative attacks 
on law enforcement, whether just the physical or the emotional 
toll that winds up taking place with police officers and 
sheriffs around the country due to those long hours and being 
exposed repeatedly to the negative media attention that is 
played on it.
    The reason I said is because we--``we,'' police officers, 
sheriffs, law enforcement--are the most visible representatives 
of the Government, and we always look to be as an arm of 
whomever is being protested against.
    Mr. Walker. Yes.
    Mr. Donohue. Most importantly, it is against the police.
    Mr. Walker. Yes.
    Mr. Donahue, you had mentioned upcoming research on left-
wing groups and anarchists. Is there anything you can tell us 
about this work? Specifically, are you looking at violence and 
destruction linked to the various militia groups or militia 
extremists that have occurred over the past few months?
    Mr. Donohue. So I don't want to tip my hand before the 
research is complete, but I said what I said in my written 
remarks and in my testimony, that there has been an exponential 
growth in both far-left and anarchist social media 
participation that is anti-police and anti-Government.
    Mr. Walker. All right.
    My question--I want to go to, I believe it is Ms. MacNab. 
You warned or cautioned or worried about, I believe was your 
terminology, for gun legislation--if any gun legislation was 
passed or if the election did not reelect President Trump, you 
were concerned, I guess, of various different levels of civil 
unrest. You might have even used, like, a ``war in the 
streets.''
    Is that just something you are seeing from your research or 
just your concern? Can you unpack that for me a little bit?
    Ms. MacNab. Sure.
    Those are two different issues, gun control and the 
reelection of President Trump.
    Gun control has been a hot issue for anti-Government 
extremism for decades. That has always been a concern. It was 
one of the factors that pushed McVeigh to move forward, was a 
restriction on assault rifles. It is just a hot button. It is 
one of the very few things they can all agree on. It is one of 
the very few things that can bring them all together.
    There was some proposed legislation in Virginia, at the 
beginning of the year, and a gun rally to protest it. 
Ordinarily, a rally with guns is going to draw 200 to 500 
people. This particular rally brought in 22,000. It is a hot 
issue.
    Most gun owners are not violent; most gun owners are not 
extremists. But there are a number in the anti-Government 
extremist world who talk about, if this is going to happen, I 
am going to unleash.
    The election of President Trump is a second issue. You 
know, a lot of these guys have been very pleased with Trump. 
They support him. You can see the MAGA hats and the Trump 
signs. They want him to continue. They have talked about civil 
war now for years if he does not continue.
    Mr. Walker. Yes. Thank you for--I didn't know if there was 
anything recent that you had seen that would expedite some of 
this.
    All of your testimony touched on the direct targeting of 
law enforcement by extremists. How can we, as a society and 
Government, best show support for law enforcement as they face 
the challenge? What, maybe, additional training tools and 
authorities do they need?
    I would like to start with Ms. Beirich, if I could, please.
    Ms. Beirich. Sure.
    I mean, first of all, we should understand that these 
movements, the militias and so on, have for years been 
targeting law enforcement. They have killed dozens of law 
enforcement officials across the United States.
    So that has to be understood, that law enforcement is 
viewed as the arm of the Government and it is, sort-of, the 
first-line level of attack. So cops are in a very precarious 
position when it comes to these movements. We should understand 
that, and we should support what the difficult work is that you 
have to do here and the threats that law enforcement face. 
After all, 2 law enforcement officers were killed out in 
California recently during the racial-justice protests and 
targeted by these ``Boogaloo boi'' folks.
    So that is first off.
    I think that, when it comes to law enforcement dealing with 
these threats, there needs to be a lot of study of enhancing 
authorities for them.
    You know, there are a lot of people out there who are 
calling for a domestic terrorism statute, for example, 
proposals, including from the Chairman here, about applying the 
``foreign terrorist organization'' designation to international 
White supremacist networks that would then allow law 
enforcement to use a whole lot of other tools than they do 
right now to combat this threat. I think these are avenues that 
should be investigated.
    I do worry deeply about the civil rights implications if 
those tools aren't used in the right way. That is why, in my 
written testimony, I talked about the need for study. But I 
think these things should be discussed and on the table.
    Mr. Walker. Thank you.
    Mr. Chairman, I am going to yield back since I am over the 
time. If we have time, I will come back and get the answers or 
responses from our other panelists. Thank you.
    Mr. Rose. Thank you, Mr. Walker.
    I now recognize the Chairman of the full committee, 
Chairman Thompson.
    Thank you for your extraordinary leadership on this issue.
    Mr. Thompson. Thank you very much, Chairman Rose.
    I thank the witnesses for their expert testimony also.
    One of the challenges that we have been working with is, 
how do we get the various platforms to assume an enhanced 
responsibility for managing content, respecting civil rights 
and civil liberties.
    But some of the things that we see being pushed out further 
enhances the militias and other extremists to carry forth their 
message. I guess I want each witness to kind-of--to what extent 
should we hold those companies responsible for the content that 
is pushed out on their various platforms?
    Chief, if you want to start off with it, and then we will 
go to Ms. Beirich and then to Ms. MacNab.
    Mr. Donohue. Thank you very much for the question.
    Enhanced responsibility for social media companies, it is 
interesting when you link that up. Obviously, in my prepared 
testimony, I speak about the value of the power of the social 
media platforms to serve as an opportunity to share ideas and 
free speech.
    But they have dollarized it. The speech that is being 
shared on a number of social media platforms obviously goes to 
provoke the assaults that we are seeing taking place on law 
enforcement and jeopardizing others that are not involved in 
the protests.
    I think the extent to which social media companies have 
been placed into positions to monitor that speech and to ask 
their communities, the social media community itself, to help 
police what is on the platforms has gone somewhat in the right 
direction. However, it is a game of whack-a-mole.
    For each of those types of extremist speech and/or videos 
that you see being shown and memes being shown, altering the 
content of what other people are saying and amplifying negative 
messages really becomes a complication.
    I think part of it is really empowering the communities 
that are on the platforms themselves, in coordination with the 
companies, to police them internally. It is not a question of 
whether police, law enforcement, can do that. That is not 
possible. As diffuse as the internet is and as diffuse as the 
number of people--as varied as the people are that are using 
it, it has to fall a little bit on them as well as the 
companies.
    Mr. Thompson. Thank you.
    Dr. Beirich.
    Ms. Beirich. Yes, I should have mentioned in my oral 
testimony your plan for a commission to look into this. I 
apologize.
    Look, you know, the process that has gone on here for too 
long now is civil rights organizations screaming and yelling 
and criticizing the tech companies in public and then having 
sort of incremental moves to improve the situation when it 
comes to White supremacy. I believe that it is going to take a 
lot more than that to really clean these companies up.
    I mean, if Facebook can submit itself to a civil rights 
audit, which then finds that it still has major problems on 
this front as well as others, then this strategy, you know, as 
much as it has brought the companies along a little ways, isn't 
enough.
    I would suggest that Congress call the tech companies to 
account for what is in their terms of service and how they are 
enforcing those terms of service. Because, at this point, most 
of them claim not to monetize hate content, not to host, you 
know, a lot of aspects of White supremacy, and yet we keep 
finding it and we keep finding it and we keep finding it, so 
much that Facebook was found to have dozens and dozens of neo-
Nazi bands on the system recently.
    So I would suggest that it is time for Congress to use its 
investigative powers in some way to call the companies to 
account, ask them about their procedures, what they are doing, 
how they do it.
    The Raise the Bar Act is, as I understand it, you know, 
modeled very much on what the European Union has done here, 
which is create monitoring exercises where outside actors look 
at what is going on with hate content and reports are created 
by the European Commission that are then used to push the tech 
companies to do better. Something like that would be good.
    Just one last note of caution. It really shouldn't be up to 
civil rights organizations that are small and underfunded to 
have to play this role in our society. It is just simply asking 
too much.
    Thank you.
    Mr. Thompson. Thank you.
    Ms. MacNab.
    Ms. MacNab. I am going to second that.
    One problem is, these organizations chase the news. So, if 
there is a sudden influx of news about the Boogaloos, then 
Facebook comes in and does a purge of some of the more violent 
Boogaloo groups. The problem is, the news doesn't often know 
what is going on in private groups, in direct messages, and 
even some of the public pages.
    I have spent a lot of time developing, you know, contacts 
in this world so that I can get into their private groups. What 
they post is shockingly bad, but because the news is not in 
these private groups, they don't report it, so Facebook just 
lets it fester. And I am just using Facebook as an example; 
there are other social media groups.
    But when there is a violent event, the first place I go is 
Facebook to see who is responding, who is claiming credit, who 
is laughing about it, who is saying, oh, they did that wrong, 
we can do better, you know, let's get the kill rate up. I am 
going to go to Facebook first and foremost.
    The Boogaloo movement, for example, isn't really a 
movement. It is a dress code, it is a way of talking, it is 
jargon. The people who belong to it came from other extremist 
groups, usually on Facebook. They might have been militia, they 
might have been, you know, a White supremacy that--you know, 
they picked it up somewhere and donned that Hawaiian shirt, and 
yet they are treated as a separate movement. The problem is, 
you are ignoring the underlying areas that they came from.
    You know, Oath Keepers has a page with 551,000 followers. 
They say some pretty violent things in the comments. I can 
report this to Facebook, and I have never had one deleted. I 
have had, you know, death threats on Facebook that were quite 
explicit. Again, I can report them, and nothing happens. Unless 
there is a lot of attention paid to the social media company, 
they don't really have any incentive to do anything at all.
    So it is not really up to civil rights groups or even the 
news to be able to monitor all of these things. So there has to 
be some external group, some committee, some something that can 
keep an eye on it.
    Mr. Thompson. Well, we are looking at that. Chairman Rose 
is kind-of taking the leadership on this.
    It is real concerning on our part, because, as you said, 
Chief Donahue, and others, you know, as long as I am making 
money off this product, it is hard to pull it back.
    Chairman Rose, if you remember, we asked a simple question 
about, how much of your revenue stream is devoted to managing 
content? It was almost like, I don't believe you asked that 
question. You know, it is like--and all we are trying to do 
is--if you are serious about it, then you speak with your 
resources.
    So I think, without having Government come in and just run 
a private business, I think we have an obligation to the public 
to make sure that these companies just can't monetize hate and 
other things and claim free speech as the reason they are not 
doing anything.
    So thank you very much, Mr. Chairman. You have been 
gracious with your time. I yield back.
    Mr. Rose. Mr. Chairman, thank you very much.
    We now recognize Ms. Slotkin of Michigan.
    Ms. Slotkin. Great. Thanks for having this hearing. I 
appreciate it.
    I am from mid-Michigan, and the issue of extremism and hate 
groups, instances and incidents with those hate groups has been 
on the rise. Just very recently, from the coronavirus lockdown, 
we have had significant, repeated protests in my district in 
Lansing, Michigan, protesting on, sort-of, all sides, both 
protesting the lockdown that our Governor has put in place but 
also protesting in response to the killing of George Floyd. We 
have seen a four-fold increase in the State of Michigan in the 
past year-and-a-half in instances of hate, whether it is 
graffiti, violence, et cetera, et cetera.
    You know, one of the things that I am concerned about is, 
since the lockdown started, we have seen the presence of a 
number of groups--we have 27 hate groups that are present in 
the State of Michigan. One of them that has been, I think, on 
the rise is the Proud Boys.
    I was wondering maybe, Chief Donahue, if you could speak to 
this group in any way. They are putting, sort-of, signs on top 
of their cars. They are wearing vests that indicate ``Proud 
Boys.'' I think there is a discussion here in the district 
about whether they are a hate group, but could you just talk to 
us about that group and what you know about them?
    Mr. Donohue. So I would have to defer. I do not know the 
Proud Boys group specifically, so perhaps one of my fellow 
panelists do.
    Ms. Slotkin. Ms. Beirich.
    Ms. Beirich. Sure. I would be happy to talk about the Proud 
Boys. While I was working at the Southern Poverty Law Center, 
we added that organization to our list of hate groups, largely 
on the basis of very ugly anti-Muslim thinking.
    Look, the Proud Boys, in some ways, are a forerunner to the 
kind of activism we are seeing in the Boogaloo bois, right? It 
is a group, it is pretty militant, a lot of inside jokes, a 
certain particular kind of look. You are right, they are 
showing up at places like these protest movements, and they are 
something to be concerned about.
    I will just say that the Canadian military, just this week, 
banned its members from being part of the Proud Boys. So that 
maybe gives you a sense of how seriously another Government 
views the organization.
    But I will say--and see if J.J. agrees with me, but I 
really think that the problem right now for the violence seems 
to be from Boogaloo folks, people connected to that. I think 
there have been, like, 7 different plots involving them, 6 or 
7--I might be a little off--involving Boogaloo bois that could 
have led to a pretty terrible situation, like what they might 
have pulled off in Las Vegas. So I would focus on them more.
    Ms. Slotkin. So then, Ms. MacNab, I mean, very 
specifically, we had a March 31 protest in front of a Lansing 
Police location. It was in response to the George Floyd murder, 
but there was a number of armed men in Hawaiian shirts who 
showed up at that protest. We didn't have any incidents, but 
they were photographed at the scene.
    Can you talk to unpack a little bit more about the Boogaloo 
bois and what we, kind-of, can expect, since we have seen what 
we think are folks on the ground here?
    Ms. MacNab. Sure.
    The problem with the Boogaloo bois is they are not a 
cohesive movement. You could have Boogaloo bois that are White 
supremacists and want to harm the George Floyd protestors. You 
can also have Boogaloo bois--and this is actually the larger 
group--that are anti-police, not racist, and they are siding 
with the protesters at the George Floyd protests. You could 
actually, in a really bizarre world, have 2 Boogaloo groups 
shooting at each other.
    So just being able to see the Hawaiian shirt, you can't 
really prejudge why that person is there and what they want to 
accomplish.
    Ms. Slotkin. OK.
    Then back to Chief Donahue, if you could just talk--you 
know, I held an event in my district with the local FBI and our 
attorney general because of the rise of incidents of hate in 
Michigan generally and in my district. They talked about this 
ladder of escalation, that you see these groups, sort-of, 
talking on-line, and then maybe there is graffiti and 
nonviolent incidents, and how we step up that ladder.
    Can you talk about trends that we have seen, in the very 
little time that I have left, on that?
    Mr. Donohue. Sure. Certainly.
    So, in my prepared testimony, I talk a little bit about how 
people are recruited on-line. What we are talking about is the 
viral nature of memes that people on-line are creating and 
sharing but then when people modify and shift their dialog from 
what was something that may have been an inside joke or 
something that is funny and then start showing things that are 
more violent.
    I can talk to specific instances more recently, in the more 
recent protests, where police were involved. There used to be 
some terms--``ACAB'' is one of them. But then that turned into, 
on viral memes, about how do you turn that into something that 
shows even more violence. One of them was--the term itself 
means ``all cops are bastards.'' But there were memes that were 
then turned into police cars on fire, and the term was morphed, 
in that meme, to ``as crispy as bacon.''
    So you can see how the terminology, the visuals of the more 
recent unrest go toward modifying and amplifying a message of 
violence. That is how that happens.
    Ms. Slotkin. Thank you, Mr. Chairman. I think I am out of 
time.
    Mr. Rose. Thank you, Ms. Slotkin.
    We will now do a second round of questioning.
    We will start off by recognizing Ms. Jackson Lee from the 
great State of Texas.
    Ms. Jackson Lee. I thank you so very much, Mr. Chairman. I 
am out in the field. I am sorry that--I hope you can hear me 
and see me. We are suffering from being in a epicenter now, 
something you have experienced, of COVID-19. But this is a very 
important hearing, and I thank you so very much for holding it 
with Mr. Thompson.
    We have seen these kinds of intrusions in the opposition to 
the Vietnam War and a number of other incidents that we have 
indulged in.
    So I am interested in asking all of the witnesses if they 
would tell me, what would be the ultimate results of not 
dealing with these fringe groups who can characterize important 
protests, where people are protesting from their heart and from 
their belief in this country, from their belief in democracy, 
from their belief in peaceful change--what would be the plight 
of the Nation without addressing these particular elements 
directly? When I say ``directly,'' legislative fixes, 
continuous oversight like this committee is doing.
    I would ask each witness to provide me their response. I 
particularly speak about Boogaloo and Proud Boys and other 
groups that have been known to do this in other eras of the 
history of the United States.
    Mr. Donohue, we will start with you.
    Mr. Donohue. Certainly.
    The end result is--we all believe in Constitutional 
democracy and our republic, and the ability to protest with 
righteous rage is important. But this is petitioning the 
Government. What we are seeing--and I believe my fellow 
panelists have been very candid in saying that what we are 
seeing is violence that is coming out of peaceful protests or 
being usurped at peaceful protests, where people are 
petitioning the Government for the right types of change, for 
accelerationist purposes.
    That is what--you can have a fine discussion, as I said 
before, about your Constitutional rights when there are tens of 
thousands of people protesting. But we need to have that 
ability preserved. But civility is the thing that we need to 
have at protests. That is lacking in many instances when we 
have accelerationists show up with guns, intent on violence and 
intent on occupation, whereas the righteous rage that is shown 
so that we can have change in Government where it is 
appropriate, as opposed to violent revolution, is what we are 
talking about. That is where police become, you know, kind-of 
straight in the headlights.
    You know, we need to learn from our past, we need to learn 
from our mistakes. We need to move beyond that. There is a path 
forward, but it is not through violent insurrection.
    Ms. Jackson Lee. Ms. Beirich. Hello?
    Ms. Beirich. Yes, thank you.
    Ms. Jackson Lee. Dr. Beirich.
    Ms. Beirich. Yes.
    If we don't do something to address the spread of this 
material on-line, the rise of these movements, whether that is 
with law enforcement enhancements, research, oversight, et 
cetera, I think that what we are facing is essentially more 
mass terrorist attacks like we saw in El Paso at the Walmart, 
not just here in the United States but probably in other 
countries, because White supremacy is flourishing abroad; we 
are going to see more rise in hate crimes, much like we have 
seen during this pandemic, as hate speech has been flown 
against Asians and Jews in relationship to COVID-19, and the 
number of attacks on these populations has risen; we are going 
to see more terrorists taking advantage of current conditions, 
whether that is directly targeting protesters, which has 
already happened. Also, cops have been killed by members of 
these extremist movements.
    But there are other scary things happening, like neo-Nazis 
from groups like The Base or Atomwaffen who claim that they are 
going to use people who are infected with COVID to infect 
others. I mean, this is a really scary thing.
    There is a huge amount of people, unfortunately, who do not 
accept multiracial, multicultural democracies and don't like 
these systems and don't like our changing demographics, and 
they are willing to use violence to stop it.
    Ms. Jackson Lee. Thank you.
    Mr. Donohue.
    Mr. Donohue. I went first.
    Ms. Jackson Lee. I am sorry.
    Ms. MacNab.
    Ms. MacNab. Not a problem.
    My biggest fear is that there will be acts of terrorism at 
active protest places that will put a damper on people willing 
to go there. It will make people afraid to actually go into the 
streets and protest. That is terrible for our system of 
democracy.
    I am also afraid that, as I mentioned in my oral testimony, 
that we are coming up on a street war. There are way too many 
guns at large protest events held by people with very differing 
views. There is a lot of paranoia. Some people bring it as a 
defensive mechanism; some people bring it as an aggressive one. 
You never know who is who until the shooting starts. I am 
terrified that there is going to be a shootout at one or more 
of these events, and that, too, will put a damper on future 
protests. That is a dreadful situation.
    It is very difficult to stop the flow of these groups. It 
is very difficult to stop them from speaking, because they, 
too, have a voice. But there is no counter-voice. You know, we 
shouldn't be waiting to see if a Homeland Security research 
memo is leaked before we know what the Government's view is on 
these groups. I would like to see some sort of public papers 
put out talking about who the groups are, how they are 
dangerous, who they target. Right now, I just comb through the 
leaks as they come out, looking for information. That should be 
public record, that should be public information.
    Ms. Jackson Lee. Thank you.
    Mr. Chairman, just one quick question to Dr. Beirich very 
quickly.
    This has been important information. What I got from this 
is that domestic intelligence is important, positively, to 
inform us to be able to protect our citizens.
    Dr. Beirich, we have seen homeowners stand in front of 
their homes with guns, misinterpreting protesters. How deep 
should we begin to assess hate speech and attitudes 
legislatively?
    We did a hate-crimes bill some many years ago. I think we 
need to modernize our perception of how we interact so that 
different groups are not demonized.
    I am asking Dr. Beirich this question.
    Ms. Beirich. Sure.
    Well, I mean, obviously, you know, these people, whose 
views I find repugnant, have, you know, First Amendment rights. 
But I do think, as I said earlier, that Congress has oversight 
responsibility to find out what the heck is going on in the 
social media world on this front.
    If companies are allowed to write their own terms of 
service, it seems to me that our Government has a right to find 
out whether they are being enforced, how they are enacted. 
Because we don't live in the same world where, if somebody said 
terrible things about Black people or Jews or Muslims, that 
voice only carried to a few other people. Now, millions of 
people are potentially the target.
    We know that young White males have been sucked into the 
ranks of these movements, some of them eventually committing 
mass violence, because of the proliferation on-line. So that is 
where it has to start. Somebody needs to pressure the 
companies, because for all the [inaudible].
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, the 
Ranking Member, and the Chairman of the full committee. I yield 
back. Thank you for this courtesy, and thank you for this 
hearing. It is very important.
    Mr. Rose. Thank you, Ms. Jackson Lee, for your 
extraordinary leadership on this issue.
    We will now recognize Mr. Walker for a second round of 
questions.
    Mr. Walker. Thank you, Mr. Rose, Chairman.
    This is to all the panel, if we can have some quick 
responses here.
    In various ways, each of you highlight the importance of 
tracking extremist content and imminent violence on social 
media. I know that is something that has been important to the 
Chairman as well. Mr. Donohue calls for the creation of a 
social media NORAD version of something.
    Can you further explain what type of access and authorities 
you think the Government or individual law enforcement agencies 
should have to track certain social media posts? Do you think 
they have sufficient authority to do this now?
    We will work left to right, no pun intended.
    Ms. MacNab, can we start with you?
    Ms. MacNab. I hesitate to give police more authority to 
monitor and review, you know, the things said by citizens. It 
is just--it is a problem area. It can be abused.
    Unfortunately, we are still on this left/right idea, 
whereas we should be looking at this as violent fringe. I think 
police have a little bit of a blind spot for right-wing that 
they don't have for left. I think they need to be looking at 
right-wing even more than left at this moment, because that is 
where the violence is.
    Mr. Walker. Can you unpack that for me just a little bit 
more, when you said they have a blind spot?
    Ms. MacNab. Look at any video of a street protest, for 
example, in Portland or in Seattle. You have a line of police 
officers separating left-wing protesters and right-wing 
protesters. If you watch, the police officers have their back 
to heavily-armed people standing behind them and they are 
facing left-wing, with the assumption that left-wing is what is 
going to harm them, whereas the people standing behind them 
have some pretty rabid anti-police ideas as well.
    There are a number of police officers, for example, with 
Three Percent tattoos or wearing Oath Keepers patches. These 
are extremist groups. Police need to be aware that some of 
these extremist groups want to kill them. That is unfortunately 
not really coming through.
    As I said, there needs to be a counter-voice on a lot of 
this. There needs to be information coming out of Homeland 
Security or FBI--I don't know what--that explains, these are 
the violent groups, these are what they are capable of, so that 
police have some ability to discern, you know, right-wing 
protesters from right-wing extremists.
    Mr. Walker. OK.
    Ms. MacNab. It is a problem.
    Mr. Walker. Thank you.
    Ms. Beirich.
    Ms. Beirich. Sure.
    So I spent the better part of my 20 years in 2 different--
you know, a Republican administration and then a Democratic 
administration trying to convince Federal law enforcement that 
the threat from right-wing extremists should not be abandoned.
    Of course, after 9/11, people were horrifically concerned 
about al-Qaeda, now ISIS. That is still important. But looking 
at right-wing extremism was essentially dropped. In fact, there 
was a division at DHS of people who created intel on right-wing 
extremism that was shut down in the early years of the Obama 
administration.
    So I think it would be very helpful to find out exactly 
what the Federal Government is doing and exactly what 
authorities they have when it comes to right-wing extremism.
    Mr. Walker. Yes, if I could interrupt just a second there, 
I didn't mention--I just said tracking extremist content and 
imminent violence on social media as a whole, whether it is 
from the left or the right, as far as what kind of tools or 
access authorities should have in doing so.
    Do you have anything to speak to that?
    Ms. Beirich. Yes. Well, the reason I am saying this is 
because the facts are right now that right-wing extremism is 
the bigger problem. If we were talking about the 1960's, I 
would not debate whether there was mass left-wing violence.
    So I just think that the focus has to be there. That is 
where the deaths are coming from. It could change tomorrow, but 
right now that is the problem, and that is what needs to be 
battled, in terms of the on-line space.
    Mr. Walker. Mr. Donohue.
    Mr. Donohue. Yes. I think no side--and I hate to use that 
as the example, but no one along the spectrum has a monopoly on 
hate and a monopoly on violence.
    I think there are authorities that exist within the Federal 
Government. There are the Attorney General guidelines on 
domestic intelligence. There is the FBI's Domestic Intelligence 
Operations Guide. I believe, in my former position in the NYPD, 
we are under Federal court monitorship for the types of 
intelligence investigations, intelligence gathering that we 
have engaged in in the past and where, as I have said in my 
prepared testimony, there has been overreach.
    Having been an intelligence officer, I understand the 
importance of it and how it can help prevent violence and 
injury and death. The fact is, as we have seen in more recent 
protests, Molotov cocktails being thrown at police officers and 
high-ranking police officials being beaten over the head, 
sustaining serious injuries, we know that there is no one side.
    In fact, when you look at the events that happened in 
California, with the deaths that you mentioned earlier of the 2 
Federal agents and sheriff's deputies, are incredibly painful 
for law enforcement to see.
    We need to have the support through DHS and their 
intelligence training and authorities at the Regional 
Intelligence Center level. You mentioned from my written 
testimony about the NORAD-type trusted brokership that I was 
talking about. We should have more conversations about that. 
Because that is understanding that entire sphere of what is 
happening on the cyber-social domain, specifically when it 
comes to violence.
    Mr. Walker. Yes. Thank you, Mr. Donohue.
    I know the DHS is expanding programs, hiring new people. I 
am encouraged by all these activities. Maybe, Mr. Chairman, at 
some point, we could do an in-person hearing to maybe get an 
update on some of that work.
    But thank you again. I see my time has expired on one 
question, but they were strong answers. I appreciate it, and I 
will yield back.
    Mr. Rose. Mr. Walker, I completely agree that that is 
something that we should absolutely pursue.
    It is clear that extremism is now threatening the lives of 
our law enforcement officials across the country. Notice I say 
``extremism.'' Again, you and I have made a commitment--and I 
respect you, Mr. Walker, for this--to not politicize our 
efforts. Extremism is also affecting people's Constitutional 
rights to congregate and be heard. This extremism is undeniably 
amplified and put on steroids by social media.
    So my question is this, very simply, to our witnesses, and 
we will start with Ms. MacNab: If Congress does not do anything 
to crack down on what is happening across the spectrum, are we 
putting the lives of law enforcement officials and law-abiding 
Americans unnecessarily at risk?
    Ms. MacNab, we will start with you.
    Ms. MacNab. The answer is yes. Whether it is long-term 
remains to be seen. It may just be the groups build and build 
and build and build without any dampening effect, and they 
engage in random acts of violence at protests or whatever, and 
then they may burn out. But the long term is unknown.
    Short term, I think we are looking at mass casualties. It 
could be 3, it could be 50, it could be--who knows? It could be 
protesters, it could be cops, it could be press, it could be 
medical workers. It could be anybody. As long as there is 
chaos, these groups will thrive, and so they will do what they 
have to do to bring chaos to the situation.
    So, yes, I think if you do nothing, people will die.
    Mr. Rose. Dr. Beirich.
    Ms. Beirich. I agree with J.J. I think if you do nothing to 
try to stop the trends that are leading to all this 
proliferating, especially in the on-line space, we are going to 
have exactly what J.J. described.
    Mr. Rose. Mr. Donohue.
    Mr. Donohue. It is very clear that the tactics and the 
rhetoric is being turned up. As I said in my prepared remarks, 
we are watching, and we need to acknowledge, which this hearing 
is doing, that we need to preserve civil society, and I believe 
Congress needs to act.
    Mr. Rose. I think politicians often get lost in minutia. We 
have here a group of experts that have bipartisan support in 
terms of their stature and expertise, and they are unanimous in 
the fact that, if we do not act as Congress to address the 
rampant increase in extremism and militia activity in America 
and the ways in which their activity is amplified on social 
media, if we do not gather the courage to act, law enforcement 
officials and law-abiding Americans will die. So, now, when and 
if that happens, we have no excuse.
    So I sincerely hope we can be able to put hyper-politics 
aside and act together to figure out how we can do something. I 
am not the sharpest tool in the shed, but if something is to be 
signed into law, Democrats and Republicans have to agree on 
something.
    So, with that, we will go on to Ms. Slotkin for another 
round of questioning.
    Ms. Slotkin. Thank you, Chairman.
    Mr. Donohue, Chief Donohue, I just wanted to continue the 
line of questioning I had in my first question.
    You, as a, you know, high-ranking police officer, a chief 
for many, many years, this ladder of escalation, you talked 
about it on the internet, right, and how something goes from, 
you know, maybe an inside joke to more extreme on the internet. 
But for the people of mid-Michigan, can you talk about that 
ladder of escalation when it hops off the internet and starts 
to become vandalism, harassment, and then potentially violence?
    We know that some of these examples you all have talked 
about, of Poway, that there is a ladder, there is a road that 
people travel before they perpetrate real violence, and for any 
extremist. I was just hoping you could walk us through what 
that looks like, kind-of in a tick-tock way.
    Mr. Donohue. I think it probably defies a logical order.
    The NIJ, a couple years back, produced a report that 
identified the potential risk factors from radicalization to 
violent extremism. It was written in the context of the 
experiences from the United States, the United Kingdom, Canada 
for people who were seeking to support violent extremism 
abroad.
    I don't want to say that I am a social scientist. These are 
examples that other experts have weighed in on. But certainly, 
among them, what you can see are people who have a desire for 
status or who want to belong, for people who desire action or 
adventure, people that have serious grievances, that feel under 
threat and have an us-versus-them attitude, those all are part 
of that toxic stew that can--can, can, not necessarily----
    Ms. Slotkin. Of course.
    Mr. Donohue [continuing]. But can contribute to 
radicalization and violence.
    Where people--parents, community members, members of their 
faith, and potentially people on the on-line community--can 
help support identifying those who are moving from just mere 
radicalization of thoughts to motivation to extremism and 
violence.
    As we have said before in our prepared testimony, that time 
frame, specifically, with what happened at the Tree of Life 
Synagogue in Pittsburgh, that murderous rampage literally went 
from a web posting moments before entering, going in and 
conducting those murders. Posted on-line, ``Screw your optics, 
I am going in,'' and then proceeded to. So the time frame from 
left of action to right of action is very, very short. It 
requires observation from many.
    Ms. Slotkin. Great. Thank you.
    Mr. Chairman, I yield back.
    Mr. Rose. Thank you, Ms. Slotkin.
    We will now move on to Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    I want to follow my line of questioning that I had 
previously.
    Dr. Beirich, I believe it is important for the Government 
to have, as part of its actions, expanded resources and 
understanding to mitigate some of the intense dangers that have 
been evidenced in this hearing.
    I take, for example, what Mr. Donohue just said about the 
email or the social media right before the synagogue heinous 
killing. I also know that Black Lives Matter and the movement 
is a civil rights movement. It is a generational movement that 
has drawn the attention of the Nation. Sixty-seven percent of 
the American public--not Black, not Latinx, not White, but all 
Americans--understand Black Lives Matter.
    So, as we go into the election, social media, lack of 
understanding, and lack of presence in the Government looking 
at these accelerators can interfere with the election, can be 
dangerous for people going to vote, in order to provoke 
something catastrophic.
    What is your response to the importance of the Government 
using resources, understanding, and being able to know where 
these accelerants are as we move into this very difficult time 
and very important time in democracy?
    Ms. Beirich. Well, I think that is a very important point 
you are making. The racial-justice movements, the Black Lives 
Matter movement is a particular target of these organizations. 
Obviously, you know, if you are a White supremacist, you don't 
care for racial justice and these are people who you want to 
stop from expressing their views and reforming American 
democracy in a positive direction.
    The Government needs to be paying attention to this. The 
fusion centers, law enforcement investigative agencies, and so 
on need to be watching these movements very, very carefully, 
monitoring where they are getting into violence in the on-line 
space. They need to be working with academics and others who 
study these movements to keep on top of these trends.
    I feel strongly that the Government needs to bring some 
oversight to the on-line space to sort-of pressure the 
companies to be better on this front. They claim to be taking 
this kind of material down, and yet it keeps popping up.
    So I think those are all very important things. You are 
going to have to really be on it in the months leading up to 
the election. If you remember, in 2018, there were 4 terrorist 
attacks in a month, including the Tree of Life Synagogue 
attack, in just a few weeks. We could be facing something like 
this coming up as we approach November.
    Ms. Jackson Lee. Thank you.
    Ms. MacNab, Dr. Beirich is right in terms of the actions in 
2018, which allows certain candidates to really take advantage 
of the divide that is going on or attempting to be going on in 
this country.
    The Second Amendment has been used as an instigator to 
divide people. No one has challenged the Second Amendment, in 
my knowledge, in the U.S. Congress since I have served, meaning 
to amend the Constitution.
    Ms. MacNab, what role does guns have and the provoking of 
the Second Amendment, along with the potential of hate speech, 
have in potentially impacting the elections as we are going 
forward?
    My question, again, to you: How important it is for the 
Government resources and understanding to be played into this, 
as well as a real response to gun-safety laws that have been 
promoted.
    Ms. MacNab.
    Ms. MacNab. My apologies, but I have lost my connection for 
about the last 5 minutes, and I am just logging back in.
    Ms. Jackson Lee. What role would guns play in the 
approaching elections with accelerationists, the provoking of 
the Second Amendment, meaning using the Second Amendment as an 
excuse against people who really want just gun safety--all of 
these issues provoking what we would want to be peaceful 
elections in 2020, but accelerationists would use these 
components to disrupt elections?
    What I said before is, there were terrorist acts during the 
2018 election, obviously skewing people to believe you needed a 
gun-toting advocate, law and order, to win as opposed to 
someone who wants to bring the Nation together. But what does 
that do in adding to the accelerationist approach to disrupting 
peaceful demonstrations?
    Ms. MacNab. Guns bring power--power that an ordinary person 
would not otherwise have. Some people are abusing that power. 
They are using guns to intimidate, and, in the worst-case 
scenario, they will use their guns to kill.
    It is not just guns. The Boogaloos who were arrested from 
Las Vegas also brought an accelerant. They were planning on 
bombing people. Another recent arrest was a car bomb. Another 
one was a man who wanted to blow up a hospital with a car bomb.
    So it is not just guns; it is just guns are visible, and 
they are very intimidating. If anything is going to cause 
protesters to be afraid to go out, it is the presence of a 
large armed group.
    Ms. Jackson Lee. Thank you very much for that testimony.
    Mr. Chairman, I think it is clear that this hearing is 
vital for actions that should be taken, in particular dealing 
with the actions by the Government. They can't sit idly by. 
They can't be leaning and giving indication of one group over 
the other, particularly groups like Boogaloo and Proud Boys, 
over peaceful protesters.
    Then [inaudible] indicated we wanted to try and have a town 
hall meeting of sorts dealing with particularly the Jewish 
community. I know that we are in COVID-19, but I look forward 
to moving on some of these issues, particularly before the 
November election. We have to make a very strong stand against 
these actions and these accelerationists.
    So, with that, Mr. Chairman, I yield back.
    Mr. Rose. Thank you, Ms. Jackson Lee.
    It is clear that there is a massive intersection here 
between protecting our law enforcement officials, protecting 
the sincere rights of millions of people to be heard as they 
call for racial justice in this country, and protecting the 
rights of our Constitution to be upheld. That will definitely 
require real action on our part.
    Ms. Jackson Lee. Thank you. Protecting all Americans. Thank 
you. I yield back.
    Mr. Rose. With that, I thank the witnesses for their 
valuable testimony and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond 
expeditiously in writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
